5499.7 R.
  Additional   opies

  To request copies of this repo11 contact Mr. HelllY Kleinknecht at (703) 604-9324
  (DSN 664-9324) or Mr. Joseph P. Bucsko at (703) 604-9337 (DSN 664-9337).

  Suggestions for Fuhlr Audit

  To suggest idea for or to request future audit contact the Office of tlle Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                              ODIG-AUD (A TIN: Audit u ge tions)
                              Department of Defense Inspector General
                              400 Army Navy Drive (Room 801)
                              Arlington VA 22202-4704


                                  To report fraud, waste, mismanagement, and abuse of authority,
                                  ~ndwriltl'l1(omplalntHo: Dell!oleHollin  nlePentagon, Wallington, DC 20301-1900
                                  Phone; 800.424.9098   e-mai~   hOlr   od' .mil www.dodig.miVholline




Acronyms

CPSR                   Contractor Pmchasing System Review
DCAA                   Defense ontract Audit Agency
DFARS                  Defense Federal Acquisition Regulation Supplement
DLA                    Defense Logistics Agency
DLAD                   Defen e Logistics Acquisition Directive
DS C                   Defense upply Center Columbus Ohio
DSCP                   Defense Supply Center Philadelphia Pennsylvania
DSCR                   Defense Supply Center Richmond, Vir inia
FAR                    Federal Acquisition Regulation
GAO                    Government Accountability Office
IG                     Inspector General
NAVICp·P               Naval InventOlY Control Point, Philadelphia, Pennsylvania
NSN                    National Stock Number
OIG                    Office ofInspector General


                         FOR OFFICIAL USE ONLY
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202 704


                                                                                             February 6, 2008
MEMORANDUM FOR UNDER SECRETARY 0 0 FENSE FOR A QUISITION,
                 TECHNOLOGY, AND LOGI TICS
               DIRECTOR DEF -NSE LOGISTICS AGENCY
               NAVAL INSPECTOR G NERAL
               AUDITOR GENERAL, 0 PARTlvffiNT OF THE ARMY
SUBJECT: Report on Procuring Noncompetitiv Spare Parts Through an Exclusive
         Distributor (Report No. 0-2008-048)

      We are providing this report for review and ommen!. We considered
management comments on a draft of this report in preparing the final repol1.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Procurement and Acquisition Policy' Defense Logistics Ag~ncy; and Naval
Inventory Control Point, Philadelphia, Pennsylvania, comments were responsive to the
recommendations. However, Army Aviation and Missile Life Cycle Management
Command comments did not meet the intent of or specifically addr 55 the
recommendations. Therefore, we request additional comments from the Anny Avinlion
and Missile Life Cycle Management Command on Recommendations A.2.a. through
A.2.d. by March 7, 2008. Ifpossible, please send management comments in electronic
format (Adobe Acrobat file only) to Joseph.Bucsko@dodig.mil. Copies of the
management comments must contain the actual signature of the authorizing official. We
cannot accept the /Signed/ symbol in place of the achlal signature.
        We appreciate the courtesies extended 10 the staff. Questions should be directed
to Mr. Henry F. KI inknecht at (703) 604-9324 (DSN 664-9324) or Mr. Joseph P. Bucsko
at (703) 604·9337 (DSN 664-9337). The learn members are listed inside the back cover.
                                        By direction of the Depu Jnspeclor General for Auditing:


                                                      ichard B. Jolliffe
                                              Assistant Insp clor General
                                          Acquisition and ontract Management


                                            SP~CIAL WA:RJ~I~W
This   'CpOiI COiit.iiii3 conti nero) iufolOistioii lhat dulY be COiii.,8iij confidclitial o. plOp. ielBij_
Section 1965, litle J8, United Slalu Code, and ,eel ion 03, litle 41, Uliiled SI",I" Code, 1" o. ide
ipecjfjc pellll'ties (or (be II IHIIIlhoFixed di5CIOi~ Fe or CO~PIlRY eORridllAtial OF fJF9fJr1etary
information. You mu t safeguard this report jn IIccordancc with DoD Regulation 5400.7-fl

Thb dotuJilcnt is CJ(Cll1pl flOm lhe mandalo.) discloSOIC (Jnde. lite FJeeduIii offnfOl1ii31loii Act
uem"ti&1I5 3,04, 8J1tl S.




                                FOR OFFICIAL USE ONLY
               Department of Defense Office of Inspector General
Report No. D-2008-048                                                  February 6, 2008
   (project No. D2006-DOOOCH-0056.000)

                     Procuring Noncompetitive Spare Parts
                                                                                                  -
                       Through an Exclusive Dist.ributol'                                         I


                                 Executive Summary

Who Should Read This Report and \Vhy? Acquisition and conh'acting personnel
within DoD should read this report because it concems the rapidly increasing prices for
noncompetitive spare palis used on Defense weapon systems.

Background. An exclusive distributor is a nonmanufacturer that bas an agreement with
palts manufacturers to be the sole representative for their Govenunent sales. DistIibutors
selve as "middlemen" who perform all of the adminish'ative tasks necessary to respond to
and fill Government orders, including quoting, procuring, and receiving the item from the
manufacturer and selling and shipping the item to the Government. The distributor
model adds a duplicate layer of administration and shipments to the traditional
procurement process. Congress has expressed concem with DoD paying exc.essive pass-
through charges on contracts entered into or on behalf of DoD when the prime contractor
provides negligible or no added value and most of the work is perfonned by
subcontractors.

Dutch Valley Supply, headquartered in Lawrenceville, Georgia, was established in
August 1963 as a commercial supplier ofhard-to-fllld lluts, bolts, and fasteners. Dutch
Valley Supply entered the Government spare palts market in 1991 and now Government
sales account for approximately. percent of business revenues. According to Dutch
Valley Supply, the company has pa11nered with 24 single-source manufacturers to
distribute approximately 150,000 spare pads to the Govemment. Dutch Valley Supply,
as an exclusive distributor, states that it provides value to DoD through reduced costs,
imp oved readiness, and iller ased competition.

For more than 10 years, the DoD Office ofhlspector General llas worked with the
Defense Logistics Agency (DLA) and other DoD Components to achieve fair and
reasonable pIices for noncompetitive spal'e palis. We found that DoD has paid excessive
prices and profit to single-source contractors for noncompetitive spare palis when cost
analysis is not perfOlmed; we issued a previous report on the reasonableness of pllces
fi:om an exclusive dishi.butor. See Appendix B for a list ofprior repOlts.

Results. DoD contracting officers were lmable to effectively negotiate prices or obtain
best value for noncompetitive spare palts procm-ed tluough Dutch Valley Supply. As a
result, DoD paid about $3.0 million (75.0 percent) more than the fair and reasonable
prices for 33 parts that cost about $6.9~ltch Valley Supply accepted prices
from manufacturers that were about $~. percen.!l.JJjgber than fair and
reasonable and then applied~ugh charges of.percent for negligible
or no added value totaling a b o u t _ If problems are not addressed, DoD will

                                                                                                  L.. -
                         FOR OFFICIAL USE ONLY                                               b(4) I
                                                                                                  I
pay about $17.8 million more than fair and reasonable prices for the same items over the
next 6 years and this valuable procurement money will not be available to support other
urgent warfighter needs. In addition the exclusive distribll ' model increased lead times
and associated inventOly levels                                We do not believe the                 :
ClUTent exclusive distributor mo e IS a vIa e procurement a temative for DoD                         ,-
(finding A).

We recommend that the Under Secretary of Defense for Acquisition, Technology, and
Logistics develop and issue guidance in the acquisition regulations that permits
contractiug officers to require consent to subcontract for fixed-price contracts from prime
contractors that exhibit significant risk of cbarging excessive prices. We also
recommend that the Under Secrehuy issue guidance that requires the Militmy
Departments and Defense agencies to collect infOlmation on and take appropriate action
to address problem contractors that refuse to provide requested infOlmation necessmy to
detennine price reasonableness. We fillther recommend that the Under Secretaly review
DLA dealer competition policies and detelmine whether the policies comply with the
Federal Acqllisition Regulation (FAR) 15.403-1 definition of adequate price competition.
Finally, we recommend that the Under Secretaly take appropriate action to identify and
address contractors that require contracting officers to procure noncompetitive items
tluough exclusive distributors.

We recommend that the Commanders, AImy Aviation and Missile Life Cycle
Management COllulland and Navy Inventory Control Point, Philadelphia; and the
Director, DLA instruct contracting officers to ensure prime contractors, like Dutch
Valley Supply, conduct appropriate cost or price analyses to establish the reasonableness
of proposed subcontract prices and include the results of these analyses in the price
proposal as required by FAR 15.404-3, "Subcontracting Pricing Considerations;"
detelmine the adequacy ofthe cost or price analyses perfOlUled by Dutch Valley Supply;
and if the prime contractor did not perfolUl adequate cost or price analyses of subcontract
prices, review and determine the reasonableness of subcontractor prices to include
obtaining cost data when necessary before awarding future contracts. We also
recommend that the commanders and the director instmct contracting officers to perfOlDl
cost analysis in noncompetitive environments when price analysis does not provide
sufficient infOlmation and a reliable baseline price has not been established, and take
action to discontinue using exclusive distributors unless they can develop a business
model that provides sufficient added value.

We recommend that the Director, DLA request the Defense Contract Management
Agency immediately begin a l'eview of Dlltch VaHey Supply's purchasing system;
instl11ct the commanders of the Defense Supply Centers to discontinue granting
inappropriate waivers from cost or pricing data based primarily on price analysis; and
continue initiating reverse engineering effOlis for items that have unreasonable pricing
fl.-om single-source offerors. We also recollullend that the director instruct contracting
officers to discontinue coding an analysis of dealer costs as cost analysis mlless a cost
analysis of manufacturing costs has also been perfollned, and discontinue using dealer
competition to detelmine price reasonableness in a noncompetitive envirollJllent. We
fiuiher recollllllend that the director emphasize to contracting officers the impOliance of
making price reasonableness detellninations, properly documenting the contract file, and
ensuring cost or pricing data is requested as required by FAR 15.403-4, "Requiring Cost
or Pricing Data,"

                                                                                                     ,
                                             11
                                                                                              b(4)   !.
                         FOR OFFICIAL USE ONLY

                                                                                                     ..
                                                                                                     1
DLA contracting officers failed to correctly calculate the thJ:eshold for requiring cost or
pricing data as required by FAR 15.403-4. As a result, DLA failed to require cost or
pricing data for eight items procured on three contracts valued at about $3.5 million.
(finding B).

We recommend that the Under Secrefluy of Defense for Acquisition, Technology, and
Logistics review and determine whether DLA' s policy for detelIDining the cost or pricing
data threshold is consistent with the Federal Acquisition Regulation. We also
recommend that the Director, DLA modify the Defense Logistics Acquisition Directive
to ensure that cost or pricing data threshold is calculated based on the final anticipated
dollar value of the action, inclusive of all options.

Review ofInternal Controls. DLA intemal controls were not adequate. We identified
matelial intel1lal control weaknesses for procurement relating to the acquisition of
noncompetitive spare palis. Specifically, DLA did not have the intemal control
procedures for procurement to determ.ine the independence of offerors or dealers for
noncompetitive items before relying on the offered prices to determine price
reasonableness, to perfmID an effective cost or price analysis of the subcontractors price,
or to ensure that waivers from cost or pricing data are appropriate and comply with
legislative and DoD guidance.

Management Comments and Audit Response. We received comments from the
Director, Defense Procurement and Acquisition Policy, Under SecretaIy of Defense for
Acquisition, Technology, and Logistics; the Director of Acquisition Management, DLA;
the Deputy Director of Contracts, Naval Inventory Control Point, Philadelphia,
PelIDsylvania; and the Chief of Staff, Almy Aviation and Missile Life Cycle Management
Command. The Director, Defense Procurement and Acquisition Policy conclllTed with
the repOlt findings and recommendations. The director issued a policy memorandum,
dated November 7,2007, reinforcing and relating the requirements of FAR Part 15.4 to
exclusive distributors. The memorandum also required contracting officers to obtain cost
data and perfonll cost analysis, as well as to report companies that refuse to provide the
required cost data.

DLA conclllTed or partially concurred with the repOlt findings and recommendations.
DLA has issued guidance and is implementing new guidance from the Defense
Procurement and Acquisition Policy office to correct the problems identified in the
repolt. The Naval InventOly Control Point, Philadelphia, Pennsylvania, concurred with
and will implement the recommendations to improve its operations.

The AnllY Aviation and Missile Life Cycle Management Command 1l0nconcu11'ed with
Recommendations A2.a. through A2.e. F'lll1her, the Army comments did not meet the
intent of or specifically address the recommendations relating to the respollsibilities of
the ptime contractor and the reasonableness of subcontract costs. Therefore, we request
that the Atmy Aviatioll and Missile Life Cycle Management Command provide
additional comments to the final repOlt on Recommendations A2.a. through A2.d. by
March 7,2008.

See the Finding section of the report for a discussion of management comments 011 the
recommendations and our audit response. See the Management Comments section of the
rep0l1 for the complete text of comments.

                                             111
                          FOR OFFICIAL USE ONLY
Table of Contents

Executive Summary                                                            I

                                                                                 .--
Background                                                                   1


Objective                                                                    3

Review of Internal Controls                                                  3

Findings
     A. Procuring Noncompetitive Spare Palts Through an Exclusive
          Distributor                                                        4
     B. Cost or Pricing Data Threshold                                      42


Appendixes
     A.    Scope and Methodology                                            47
     B.    Prior Coverage                                                   51
     C.    Other Matters ofInterest-Cost or Pricing Data Waiver             54
     D.    Contract and OIG Cost-Based Manufacturer Prices                  57
     E.    DLA Guidance on Dealer Competition                               60
     F.    RepOlt Distribution                                              62


~1anagement     Comments
     Under Secretmy of Defense for Acquisition, Technology, and Logistics   65
     Defense Logistics Agency                                               68
     Depaltment of the Navy                                                 77
     Department of the Army                                                 79




                        :FOR OFFICIAL USE ONLY
Background
           Procurement Process. An exclusive distributor is a nonmanufacturer that has an
           agreement with pads manufacturers to be the sole representative for their
           Govemmellt sales. Distributors selve as "middlemen" who perfonn all of the
           administrative tasks necessary to respond to and fill Govel1l1llent orders,
           including quoting, procuring, and receiving the item from the manufacturer and
           selling and shipping the item to tbe Govenunent. Spare palis distributors
           nOllllally do not stock items; instead ordering items from single-source
           manufacturers when the Govemmellt need becomes known. Thus, the items
           ordered just "pass tbrough" the distributor on their way to DoD. The distributor
           model adds a duplicate layer of administration and shipments to the traditional
           procurement process, Figure 1 shows the traditional spare palt procurement
           process and the process with a distributor.

                  rl~dilloMl        ProcurUMlll PIOCtH




              DoD CU1l1an!l1l
                   Of6(u,




              DoD CClIl';'\(tilll
                   016(.15

                                                               ~.I'.ulS
                                                              SII\'n"i?nt




           Figure 1. Spare Part Procnrement Process With and "'ithout a Distributor

           Legislation on Pass-Through Charges. Congress has expressed concem with
           DoD paying UIlUeCeSSalY or excessive pass-tbrough charges l 011 contracts entered
           into or 011 behalf of DoD when plime contractors provide negligible or no added
           value and most of the work is pelfolmed by subcontractors. Public Law 109-364,
           "John Wamer National Defense Authorization Act for Fiscal Year 2007,"
           prohibits DoD from paying excessive pass-through charges in relation to the cost
           of work perfonned by the relevant contractor or subcontractor, Fm1her, the Act

I   An excessive pass-through charge is defined as a charge to the Govemlllellt by !l contractor or
    subcontractor that provides no or negligible value for overhead or profit on work perfolUled by a low-tiel'
    contractor or subconll'actor.

                                                         1
                                                                                                                  L_
                                          FOR OFFICIAL USE ONLY
requires the SecretalY of Defense to establish policy and an implementation plan
to prevent DoD fi'om paying excessive pass-through charges.

Company Overview. Dutch Valley Supply, headqualiered in Lawrenceville,
Georgia, was established in August 1963. Originally, Dutch Valley Supply's
business model was geared towards commercial customers seeking hard-to-find
nuts, bolts, and fasteners. In 1991, after the GulfWa1", their business model
shifted towards the Govenunent spare palts aftennarket. Now, according to
Dutch Valley Supply management, about • percent of Dutch Valley Supply's
business consists of Govemment sales. During FYs 2003 through 2006, Dutch
Valley Supply sales to the Defense Logistics Agency CDLA) totaled
approximately $63.9 million, or average annual sales of approximately
$16 million.

       Manufactul"ing Partners. According to Dutch Valley Supply, the
company has palinered with 24 single-source manufacturers to distribute
approximately 150,000 spare parts to the Govemment. Table 1 lists Dutch Valley
Supply's single-source paliners.




         Affiliations. Dutch Valley Supply is a private family-held company with
affiliates at IDC Industries and ECI Defense Group located in Lyles, and Bon
Aqua, Tennessee. The three companies are separate entities that share common
ownership. IDC Industries and ECI Defense Group have the same business
model and entered into similar distributor alTan ements wi         . s'      .e
manufacturers
_              For examp e, Slice Febl11ary 27, 2006'iliiiJiiiCI
                                                          Defense Grou has been
the sole reseller of all spare palis manufactured by                     and its
subsidiaries. IDC Industries had sales to DLA, tot     g approxnna e y
$10.5 million fl:om FYs 2003 through 2006. Additionally, ECI Defense Group
began its business in FY 2005 and achieved DLA sales of approximately
$3.2 million from FY 2005 through FY 2006.

Prior Audits. For more than 10 years, the DoD Office ofInspector General
(OIG) has worked with DLA and other DoD Co ponents to achieve fair and
reasonable prices for noncompetitive spare parts. We found that DoD has paid
excessive prices and profits to single-source contractors for noncompetitive spare

                                     2
                  FOR OFFICIAL USE ONLY
                                                                                     b(4)
     palis when cost analysis is not perfOlIDed, including our fmdings in a previous
     repOlt 011 the reasonableness of prices from an exclusive distributor. DoD
     Inspector General (IG) RepOli No. D-2004-0 12, "Sole-Source Spare PaIts
     Procured From an Exclusive Distributor," October 16, 2003, showed that the
     AnDy Aviation and Missile (now refened to as Aviation and Missile Life Cycle
     Management) Command and DLA paid about $_~ercent)more
     than fair and reasonable prices for noncompetitive spare pads, procured from
     AAR Defense Systems, an exclusive distributor for Hamilton Sundstrand. AAR
     Defense Systems failed to effectively negotiate prices with Hamilton Sundstrand
     re~milJjollof the excessive prices. Further, the remaining
     $ _ J e r c e n t ) of the excessive prices represented Ulmecessary pass-
     through charges considering that the exclusive distributor failed to provide
     sufficient added value. See Appendix B for a list of previous audit reports.


Objective

     Our overall audit objective was to evaluate whether DoD is obtaining the best.
     value and purchasing spare pads at fair and reasonable prices from Dutch Valley
     Supply. See Appendix A for a discussion of the scope and methodology and
     Appendix B for prior audit coverage.


Review of Internal Controls

     We identified material internal control weaknesses for DLA as defined by DoD
     Instmction5010.40, "Managers' Intemal Control (MIC) Program Procedures,"
     JallUalY 4, 2006. DLA did not have the following internal control procedures for
     procurement to:

            •   determine the independence of offerors or dealers for noncompetitive
                items before relying on the offered prices to detennine price
                reasonableness,

            •   perfOlID an effective cost or price analysis of the subcontractors' price,
                and

            •   ensure that waivers from cost or pricing data are appropriate and
                comply with legislative and Departmental guidance.

     Implementing Recommendations A.l.c., A.2.a., A.2.b., A.2.c., A.2.d., A.3.a.,
     A.3.b., and A.3 .e. will improve DLA procurement procedmes. If these
     procedures al'e implemented, potential recuning monetary benefits of about
     $2.7 million can been achieved. A copy of the repOlt will be provided to the DLA
     settlor official responsible for intemal controls.




                                          3
                      FOR OFFICIAL USE ONLY
                                                                                             b(4) !
                    A. Procuring Noncompetitive Spare Parts
                        Through an Exclusive Distributor
                    DoD contracting officers were unable to effectively negotiate prices or
                    obtain best value for noncompetitive spare palis procured through Dutch
                    Valley Supply, au exclusive distributor for numerous single-source
                    manufacturers. Negotiations were not effective for the following reasons.

                             •    Dutch Valley Supply did not effectively negotiate prices with
                                  single-source manufacturers (subcontractors) including
                                  obtaining c·ost data when neceSSaIy.

                             •    DoD contracting offic.ers primarily relied on ineffective tools
                                  such as price analysis, cost analysis of dealer costs, and dealer
                                  competition to SUppOlt price reasonableness detenninations. In
                                  several instances price reasonableness determinations were not
                                  made.

                             •    The CUlTent exclusive disb.i.butor model used to procure items
                                  does not provide best value and is less effective than the
                                  traditional DLA supply aIld strategic supplier models.

                    As a result, DoD paid about $3.0 million C75.0 percent) more thaII the fair
                    and reasonable prices 2 for 33 parts that cost about $6.9 million. Dutch
                    V~ly accepted prices from manufacturers that were about
                    $-..C.percent) higher than fair and reasonable and then
                    applied ~ass-throu~ char. of~ercentfor negligible or no
                    added value totaling about. $              'iiPfOblellls are not addressed,
                    DoD will pay about $17.8 million more than fair and reasonable prices for
                    the same items over the next 6 years and this valuable procurement money
                    will not be available to supp0l1 other urgent warfighter needs. In addition,
                    the CUlTent exclusive distributor model incr ed lead times and associated
                    inventOly levels by                               We do not believe the
                    cunent exclusive dis n ntor mo e IS a VIa e procmement alternative for
                    DoD.


Guidance

           Prime Contractor Responsibilities. Federal Acquisition Regulation (FAR)
           15.404-3, ('Subcontract Pli.cing Considerations,') requires contracting officers to
           detennine price reasonableness for the prime contract, including subcontracting
           costs. Further, the prime contractor must evaluate subcontractor prices to



2   We calculated fair and reasonable prices by perfonuing cost analysis and including a profit in line with
    DLA strategic supplier alliances. For consistency and accuracy. we used average annual demand
    quantities to calculate tolal amounts tbat exceeded fair and reasonable prices.

                                                        4
                                 FOR OFFICIAL USE ONLY                                                         b(4)
establish price reasonableness as palt of the prime contract proposal.
Specifically, the FAR states:
       (a) The contracting officel' is responsible for the detennination of price
       reasonableness for the prime contract, including subcontracting costs.
       The contracting oBicer should consider whether a contractor or
       subcontractor has an approved pm-chasing system, has peLfollued cost
       01" price analysis of proposed subcontractor prices, or has negotiated
       the subcontract prices before negotiation of the prime contract, in
       detennining the reasonllbleness of tJle prime contract price. This does
       not relieve the contracting officer from the responsibility to analyze the
       contractor's submission, including suhc-ontractor's cost or plicing data.
       (b) The prilnl.' contl'llctoL' or subcontractor shall-
            (1) Conduct appl'()priate cost 01' price. analysl.'s to establish the
       reasonableness of proposed subcontl'l'lct prices;
            (2) Include the results of thl.'se annlys{'s in tb{' plice proposAl;
       and
            (3) wtlen requu'ed by paragraph (c) of tins subsection, submit
       SUbcollh'actor cost OL' pricing dl'lta to the GOl'el'lllnl.'nt ns part of its
       own cost or pricing datn.
       (c) Any contractor or subcontractor that is required to submit cost 01'
       pricing data also shall obtain and analyze cost or pricing data before
       awarding any subcontract, purchase order, or modification expected to
       exceed the cost or pricing data threshold, unless au exceptiolt in
       15.403-1(b) applies to thal action. [empbasis added]

Contractor Pnrchasing System Review. FAR 44.3, "Contractors Purchasing
Systems Reviews," pennits the administrative contracting officer to perform
contractor purchasing system reviews (CPSR) to evaluate the efficiency and
effectiveness with which the contractor executes Govemment funds and complies
with Government policy when subcontt·acting. The adOlinisttoative contracting
officer relies on the results of the review to grant, withhold, or withdraw approval
of the contractor's purchasing system. When a CPSR is conducted, special
attention will be given to the degree ofprice competition obtained and pricing
policies and techniques used by the contractor. The FAR establishes criteria for
when the administrative contracting officer should perfoffil a CPSR. Specifically,
FAR 44.302, "Requirements)" states:
       (a) The ACO [administrative cOll!t<lctillg officer] shall detenniue the
       need fol' a CPSR based 011, but not Jjmited to, the past perfonuance of
       the contractor, and the volume, complexity and dollar value of the
       subcontmcts. If a contractor's sales to the Govenunellt (excluding
       competitively awarded finu-fixed-price and competitively awarded
       fixed-price with economic plice adjustment contracts and sales of
       cOlllmercial items pw'Suant to Part 12) are expected to exceed
       $25 nnUion during the Ilext 12 months, pelforro. a review to detemlille
       if a CPSR is needed. Sales include tbose represented by prime
       contracts, subcontracts under Government prime contracts, and
       modifications. Generally, a CPSR is 110t perfoffiled for a specific
       contract.     The head of the Rgenc.y l'esponsihl(' fOl· contract
       adminish'atioD may L'aise 01' lowN' the S25 million review levl.'l if it
       is consldl.'red to hI.' in tbe Government's best interest. [empbasis
       l'lddedJ

                                            5
                    FOR OFFICIAL lISE ONLY

                                                                                       1--
Consent to Sllbconh'act. FAR 44.2, "Consent to Subcontracts," prescribes
policies and procedures for consent to subcontract or advance notification of
subcontracts. Specifically, FAR 44.20 I-I, "Consent requirements," states:
       (a) If the contl'actor has an approved purchasing system, consent is
       required for subcontracts specifically identified by the contracting
       officer in the subcontracts clause of the contract. The contracting
       offtcl'r mRy l'eqnir{' cons{'nt to subcontmct if the conh'acting
       offic{'r has det{'rmined that an individual consent action is requind
       to protfct the GO\'frnment ad{'quately because of the subcontract
       t'yp{', compl{'xity, 01' value, or because the subconh'act nl'{'ds spfdal
       surv{'mADce. These CAU be subcontracts for critical syst{'ms,
       subsystt'ms, compon{'nts, 01' services. Subcontracts may be identified
       by subcontract number or by class of items (e,g., subcontl'acts for
       engines 011 a prime contract for airframes).

       (b) If thl' contl'Rctol' does not have aD appl'oved purchasing
       s)'stem, conS{'Dt to subcontl'llct is r('quired fOl' cost-)"('imbm'sem{'ot,
       time-nnd-matE'rials, labor-holll', or lett('r contmcts, and Also fOI'
       llnpricE'd actions (including uopl'ic{'d modificafioDs :md uopric{'
       [sic] deliYE'ry orders) und{'l' rued-price contrActs that exc{'ed the
       simplified acquisition thl'eshold. , . [emphAsis added)

Further, FAR 44.202-2, "Considerations)" informs the contracting officer to
consider risks associated with procurements.
       (a) The confl<\cting officer responsible for consent must, at a
       minimum, review tbe request and supporting data and consider the
       following:



                (8) Has the contractor perfonned adequate cost or pncmg
       analysis 01' price comparisons and obtained accurate, complete, and
       cun-ent cost or pricing data, including any required certifications?



       (b) Partknlarly cardul And thorough consideration                   undel'
       pRl'llgmph (a) of this section is neC{'SSRI1' when-

              (1) The prime. conh'netor's             purchasing s)'stem       01'
       performance is inadequate;

               (2) Close working rt'latioDships or owot'l'ship affiliations
       betwet'D the prime. and snbcoutradol' ma~' preclude fl'{'e
       comp tilion 01' result in higher prices;

              (3) Subcontracts are propos{'d for awal'd on a non-
       competUive basis, at pric{'s that appeal' unrE'asonable, 01' at pl'ices
       higher tban those ofiel'('d to th{'. Govel'Dment In comparable
       circumstances, . , [Emphasis add{'dl



                                           6
                   FOR OFFICIAL USE ONLY
Negotiations With Single-Source Manufacturers
  (Subcontractors)

    Dutch Valley Supply failed to effectively negotiate prices with single-source
    manufacturers including obtaining cost data whenuecessalY.

    Subcontractor Prices. Dutch Valley Supply accepted the single-source
    manufacturers (subcontractors) prices as proposed without perfolming
    appropriate cost or price analysis to determine price reasonableness. We
    calculate, using costanal sis that Dutch Valley Supply accepted manufacturer
    prices that were $            .percent) more than fair and reasonable prices.
    Table 2 shows the excessive pnces that Dutch Valley Supply accepted from its
    subcontractors (single-source manufachuers) by not perfOlming appropriate cost
    analysis or effectively negotiating prices. This valuable procurement money
    could have been put to better use supp011ing other urgent warfighter needs.

                        Table 2. Excessive Prices Paid to Subcontl:actors



                            il
                                                Total Price                     Excessive Profit
        Manufacturer                  Manufacturer     OIG Cost-Based1         Amount       Percent




       Total                 33         £5,744,843 2        S3,947,0162        S1,797,827 2          45.5


      IThe OIG cost-based prices were calculated by using cost analysis of manufacturing costs and
      included a profit in line with DLA strategic supplier alliances.
      2Sliht roundin inconsistencies exist because auditor calcula .




    Dutch Valley Supply management believed that perfOlming cost or price analysis
    on every offered price was too burdensome, stating that only one-third of
    requirements solicited by DoD results in a contract award, implying that two-
    thirds of the time their effOlt was wasted because no contract was awarded.
    Dutch Valley Supply provided only recent procurement histories to assist
    manufachlfers in developing their pric.es and focused more on saving
    administrative costs rather than negotiating a fair llnd reasonable price.

            Spare Parts Catalogs. Dutch Valley Supply prefened to use parts
    catalogs in order to eliminate negotiations and fmiher reduce the administrative
    costs involved with quoting DoD requirements. According to ute Valley
    Supply, parts catalogs were developed with _              and . . . - .
    However, Palts catalogs are not appropriate lIDless the prices ~n
    commercial sales of qllantities similal' to actual DoD requirements or purchases.

    For example, the ~8Jts catalog listed a unit price of$1,213.76 based
    on a quantity of o~ctricalsolenoid [National Stock Number
    (NSN) 5945-01-274-3967]. However, the DoD annual demand for the palt is
                                              7
                        FOR OFFICIAL USE ONLY                                                               b(4)
127 and the contract quantity we reviewed was 81. We calculate, using cost
azgsis, that the fair and reasonable unit price for the electrical solenoid was
$         Thus, the _ c a t a l o g price is _percent higher than a fair
and reasonable price. Relying on pads catalogs is high risk unless the prices are
based on similar quantities of commercial sales.

        Interactions With Manufacturers. Dutch Valley Supply did not
negotiate prices proposed by single-somce manufactmers unless DoD contracting
officers questioned the reasonableness oftlIe price.

For example, ill December 2004, the Defense Supply Center, Richmond, Virginia
(DSCR), awarded contract SP0407-05-C-2105 to Dutch Valley Supply for
353 door handles (NSN 1680-01-102-6066) used on the H·60 Blackhawk
helicopter. Figure 2 shows the door handle used on the Blackhawk helicopter.




Figure 2. Blackhawk Helicopter Door Handle NSN 1680-01-102-6066

Dutch Valle Su I ori illally submitted an offer for 353 units at $1,012.40
each.                          ~le-somce manufactmer, quoted Dutch
Valley upp y a umt pnce 0 $_~ which was .percent more than the
previous Government contract umt price of $506.11, in December 2003, about
1 year earlier. However, Dutch Valley Supply did not question the large price
increase until the DSCR contracting officer submitted a counteroffer of $485 each
on September 30, 2004. On October 7, 2004, a Dutch Valley Supply client
coordinator wrote an e-mail to ask             whether it wanted to lower the
pnce.




_ l o w e r e d its unit price by .~t. to $ _ Dutch Valley Supply
subsequently reduced its unit price to $ _ and a contl'act was awarded,
totaling $345,012. The price negotiated was still 93.1 percent more than the
previous contract price. Using cost data obtained from a previous audit we
calculated that the fair and reasonable manufacturer unit ~rice was $iiiiiiifor
the door handle. As a result, DoD paid ~                   ercent) more than
                                    8
                 FOR OFFICIAL USE ONLY
                                                                                    b(4)
necessary for the door handles, including Dutch Valley Supply pass-through
charges.

Threshold for Purchasing System Review and Consent to Subcontract. A
CPSR is the control DoD normally uses to ensure that prime contractors are
efficiently and effectively spending Govenunent funds and complying with
Govenunent policy when subcontracting. The system review requires the
adlllinisb:ative contracting officer to give special attention to the degree of price
competition obtained and contractor pricing policies and techniques, including
methods of obtaining accurate, complete, and CUlTent cost or pricing data and
certification as required. However, Dutch Valley Supply's purchasing system has
not been reviewed because its annual sales were below the $25 million threshold
established in the FAR. From 2003 tllIough 2006, Dutch Valley Supply averaged
allllual DLA sales of $16 million with the highest sales total of $20 million in FY
2004.

Our review of Dutch Valley Supply purchases identified significant problems that
show that Dutch Valley Supply IS not properly ensnring Govefllillent funds ate
spent wisely and prime contractor responsibilities are not being followed.
Further, Dutch Valley Supply has not demonstrated an adequate purchasing
system that will alleviate concerns within the areas of special attention.
Specifically, Dutch Valley Supply did not obtain adequate price competition
because the items sold were noncompetitive from single-source manufacturers.
Dutch Valley Supply managers believed that evaluating the reasonableness of
subcontractor prices was "burdensome" and failed to effectively negotiate prices
with lts subcontractors to include_ohtainincy cost data when necess~I1Y. As a result,

Dutch Valley Supply passed on $                'n excessive subcontractor prices to
DoD.

Dutch Valley Supply does not have incentive to negotiate lower prices from its
subcontmctors because its markup is applied as a percent of the subcontract price.
Thus, a higher price will result in more profit than a lower price. Clearly, prime
contractors or exclusive distributors of noncompetitive palis, like Dutch Valley
Supply, that operate just below the FAR threshold of a CPSR have a high risk of
passing on excessive prices to 000. DoD needs to recognize this additional risk
and apply appropriate conh'ols necessmy to ensure that the lisk has been
mitigated.

In addition, the FAR does not specifically allow contracting officers to withhold
consent to subcontract for prinle contractors, like Dutch Valley Supply, that do
not have an approved purchasing system and consistently employ fixed-price
contracts with DoD. These prime contractors appear to have "implied" consent to
subcontract and contracting officers have no power to limit their actions.
FAR 44.202-2 alelis contracting officers to consider situations when the prime
contractor's pm-chasing system or performance is inadequate; close working
relationships or ownership affiliations between the prime and subcontractor result
in higher prices; or subcontracts that are proposed for award on a noncompetitive
basis, at prices that appear lUlfeasonable, or at prices higher than those offered to
the Govemment in comparable circumstances. Clearly; based all our audit
results, Dutch Valley Supply, acting as an exclusive distributor for
noncompetitive spare parts, has exhibited significant risk in each of the areas.

                                      9
                  FOR OFFICIAL USE ONLY
                                                                                        b(4)
    However, the regulation does not permit contracting officers to take appropliate
    action to address this problem because fixed-plice contracts were used.

    Given the significant problems we identified with Dutch Valley Supply
    subcontracts, DLA should request the Defense Contract Management Agency to
    immediately begin a review of Dutch Valley Supply's purchasing system. DoD
    contracting officers need to ensure prime contractors, like Dutch Valley Supply,
    conduct appropriate cost 01' price analyses to establish the reasonableness of
    proposed subcontract prices and include the results of these analyses in the price
    proposal as required by FAR 15.404-3. DoD contracting officers need to
    detenlline the adequacy of the cost or price analyses perfonned by Dutch Valley
    Supply. If the prime contractor did not perform adequate cost or ptice analyses of
    subcontract prices, DoD contracting officers need to review and determine the
    reasonableness of subcontractor prices to include obtaining cost data when
    necessary before awarding future contracts.

    The Under Secretary of Defense for Acquisition, Teclmology, and Logistics needs
    to develop and issue guidance in the acquisition regulations tbat permits
    contracting officers to require COllsent to subcontract for fixed-price contracts
    from prime contractors that exhibit signific.ant risk of charging excessive prices.


Price Reasonableness

    DoD contracting officers primarily relied on ineffective tools such as price
    analysis, cost analysis of dealer costs, and dealer competition to SUppOli. price
    reasonableness detenninations. In several instances price reasonableness
    determinations were not made. Table 3 shows the different methods DoD
    contracting officers used to detennine price reasonableness and the amount of
    excessive profit paid.

       Table 3. DoD Price Reasonableness Determination and Excessive Profit
                                                         Total Pri.ce             Excessive Profit
    Price Reasonableness            Items     Contract       OIG Cost-Based I     Amount     Percent
    Price analysis
     Determined reasonable           16      $2,923,053          $1,772,832     $1,150,221     64.9
     Detennined u1l1'easonable       ..1      1.856,759             832,014      1,024,745    123.2
      Subtotal                       23      S4,779,812          S2,604,846     52,174,966     83.5
                 2
    Cost analysis                      4     $1,094,118           $731,696        $362,422     49.5

    Dealer competition                 3       $436,936           $191,750        $245,186    127.9
    No detenrullatioll               ...l    $ 595638            $ 418,724      $ 176.914      42.3
       Totnl                         33      56,906,504          S3,947,016     S2,959,488     75.0

    IThe GIG cost-based prices were calculated by using cost analysis of manufacturing costs and
    included a profit ill line widl DLA strategic supplier alliances.
    2For three of the foUl' items cost analysis was not perfonned ou tbe manufacturing costs.




                                              10
                         FOR OFFICIAL USE ONLY
Price Analysis. DoD paid about $2.2 million (83.5 percent) more than fair and
reasonable manufacturer prices for 23 items that used price analysis ofprevious
Government prices to detennine price reasonableness. According to the price
reasonableness determinations, 16 oHhe 23 items were detennined reasonable,
while 7 items could not be determined reasonable but the contracting office had to
procure the items anyway to ensure an adequate supply for the warfighter.

        Determined Reasonable. DoD paid about $1.2 million (64.9 percent)
more than fair and reasonable manufacturer prices for 16 items after performing
price analysis of questionable previous Govemment contract prices to detenrune
prices reasonable. For example, on JanualY 30, 2004, the Defense Supply Center,
Columbus, Ohio (DSCC), purchased 155 remote confrollevers (NSN 3040-01-
045-8779) used on the Super Cobra (AH-l W) helicopter at a unit price of
$1,839.10 on contract SP0740-04-C-4522. Figure 3 shows the remote control
lever used on the Super Cobra (AH-I W) helicopter.




Figure 3. Remote Contl·o) Lever NSN 3040-01-045-8779

To detenlline price reasonableness, the contracting officer pelformed price
analysis by comparing the proposed price to the previous procurement. The
previous contract, awarded in March 2003, was also awarded to Dutch Valley
Supply at the same un.it price of $1,839.10 but for a significantly lower quantity
of 30 units. The price negotiation memorandum stated:

       ... pricing received from DVS [Dutch Valle.), Suppl)') shows 3n in
       line pl"ice comparison with no indication of over pl'idug.
       Negotiation will not be conducted for tlle Govenmlent accepts the price
       £i:Oll DVS as fair based onlhis analysis conducted. lem}>!lasis added}




                                         11
                   FOR OFFICIAL USE ONLY
Table 4 shows the contractors, contract prices, and method used by DSCC
contracting officers to detetnllne price reasonableness for the remote control lever
in the contract we reviewed (awarded in JanwllY 2004) and the two preceding
awards.

                 Table 4. Price Reasonableness Dete.·minatioDs for the
                   Remote Control Lever (NSN 3040-01-045-8779)
                                                                                              Percent
       Date              Contractor     Unit Price       DLA Buyer Code-Defmition            Increase
November4,2002 _                        $1,36].60             BB - Dealer Competition
 March 7,2003           Ulltch Valley    1,839.10    B1 - Other Price Analysis Tec1Uliques     35.1
                           Supply
 January 30, 2004       Dutch Valley     1,839.10    HI - Other Price Analysis Tec1miques       0.0
                           Supply

The previous contl"act price awarded in March 2003 was also detennilled fair and
reasonable based on price analysis techniques despite a 35.1 percent increase in
about 4 months of the preceding contract. In November 2002, DSCC paid
$1,361.60 per unit for 65 units to _             the single-source manufacturer.
However, that unit price of $1 ,361.60 is also questionable because the price was
determined reasonable based on ineffective dealer competition, which we discuss
in more detail later in the report. The contracting officer failed to understand and
document the cause of the significant price increase seen between the
November 2002 and March 2003 procurements before relying on the price to
detennine price reasonableness.



                  $_
Although the contracting officer saw "no indication of over pricing," we
perfonlled cost ~s and calculate that the fair and reasonable manufactmer
unit plice was            Thus, we calculate that DSCC, by relying on ineffective
price~sis techni~ dealer competition to detennine prices reasonable,
paid _percent (~~ more than the fair and reasonable price for remote
control levers, inc1udlllg excessive pass-through charges. Table 5 shows the
comparison of the DSCC pricing method and the fair and reasonable
manufacturer price we calculated using cost analysis.

  Table 5. Comparison of Dealer Coml>etitionlPrice Analysis and Cost Data for
               Remote Control Lever (NSN 3040-01-045-8779)
                           Annual       DSee Contract Price         Comparison Price         Difference
        Method            DelllilIld     Uni.         Total         Unit       Total




                                                                     -                                -
 Dealer COUlpelilionl
 Price Analysis              66         $1,839.10    $121,3&1     $1,839.10   $121,3&1         o          0.0
 Cost Anal sis               66          1839.10      121 3&1                            $

The DSCC contracting officer relied 011 the previous contract plice without
establishing the validity of the comp81ison and reasonableness of the plioI' price
as required by the FAR 15.404-1, "Proposal Analysis Techniques." Specifically,
FAR l5.404-l(b)(2)(ii) explains the technique that was not used by the
contracting officer:


                                                12
                        FOR OFFICIAL USE ONLY
                                                                                                                b(4)
       Comparison of previously proposed prices and previous Government
       and conunercial contract prices with current proposed prices for the
       same or similar items, if both the validity of the compal'ison and tht>
       reasonableness of the pn'vious pIice(s) can be established,
       (emphllsis added]

This example demonstrates the ineffectiveness of using price analysis without
establishing the validity of the comparison and reasonableness of the previous
price in a nonc.ompetitive envirolllIlent.

Like this repolt, previous DoD 10 audit reports have documented the same
systemic problem with price Analysis used in a noncompetitive environment to
determine price reasonableness. The continued use of ineffective plice analysis ill
a noncompetitive environment is a material intemal control weakness and needs
to be addressed. Since ac,quisitioll refofmlegislatioll was enacted in tbe mid-
19908, the prevalence of price analysis of previous Govemment prices throughout
DoD has created a price history that is not reliable to establish price
reasonableness in future procurements because Ollc·e an excessive price is
accepted it becomes the baseline for the next plice, Further, as prices that were
wrongly considered fair and reasonable continue to be relied upon in more and
more procurements, the difference between the negotiated price and the actual
cost will continue to increase. In a noncompetitive environment, when the C\lll'ent
price histoly is not reliable to establish fair and reasonable prices, the only way to
re-establish a reliable baseline price is to perfolm cost analysis.

In response to recommendations from DoD 10 Repolt D-2006~122, "Commercial
Contract for Noncompetitive Spare P~l1is With Hamilton Sundstnmd
Corporation," September 29,2006, the Director, Defense Procurement and
Acquisition Policy issued a memorandum, dated June 8, 2007, annOlillcmg
revised procedmes added to the Defense Federal Acquisition Regulation
Supplement (DFARS) to detennine fair and reasonable prices especially for
noncompetitive items.

DFARS 215.404-1, "Proposal Analysis Techniqnes," provides general guidance
and discusses appropriate uses of price and cost analysis. Specifically, the
DFARS stated:

       (b) Price analysis.

                 (i) Price analysis should generally be perfollned on supplies
       or selvices that are 110t subject to TINA [the Truth in Negotiations
       Act). Available cOlllmercial sales, published catalogs or prices, etc.,
       can sometimes be obtained through market research and can provide a
       basis for detennining if the proposed prices are fair and rea onable.

                  (il) In some cases, cOlDJnHc!al sRl£>s Hl'(>· not available and
       thN'e is no otber w:u'kef information for detN'mlning fail' and
       reasonable prices , •. In such cases, tbe contracting officer must
       requh'l.'. the offeror to submit wbateve}' cost Infonnation is need£>d
       to detel'minl.'. pl'ire l'easonableuess.



                                          13
                    FOR OFFICIAL HSE ONLY
                (iii) TIle following procedures shall be adhered to when
        executing the price anAlysis steps at FAR 15.404-1 (b)(2):

                        (A) When the contracting officer is relying on
       il1fonuation obtained from sources other than the offeror, tbe
       conh'acting officel' most obtain and document suffident
       informntion to COnfil1D that previous pl'ices p:lid by th0
       Go\,nnmt-nt were bAsed on a thorough price and/ol' cost analysis,



       (c) Cost analysis.

                (1) When the conn'acting offict'r cannot ObtAin snfficient
       information to pl!loform a pdce analysis in accord:mce with the
       pricing steps in FAR 15,404-1(b), a cost anlllysis is required,

               (ii) When a solicitation is not subject to TINA and a cost
       analysis is required, tb(\ contrading ofJ'ict> I' mllst dl!al'l~'
       communicate to tbl:' offel'ol' tbt> cost information tbnt wiII b(\
       Deeded to dE-tel'mine if till.' pl'oposed price is fair Rod reasonable,
       (emphasis added]

DoD contrading officers need to perform cost analysis in a noncompetitive
envirownent to determine price reasonableness when price analysis does not
provide sufficient information and a reliable baseline price has not been
established.

Appendix C, "Other Matters of Interest," provides another example ofthe
ineffectiveness of price analysis and discusses a questionable waiver from cost or
  -iCin data based primarily on price analysis that was issued for a 10ng-telID
(!I!i!       contract with DSCC. DLA has exhibited a matelial internal control
wea ess ill granting inappropriate waivers to cost or pricing data because it does
not have adequate procedures to ensme that waivers are granted in compliance
with guidance. DLA needs to discontinue granting inappwpriate waivers from
cost or pricing data based primarily on price analysis.

        Determined Unreasonable. DLA contracting officers determined that
prices for seven paIis could not be detenmned fair and reasonable using price
analysis. However, because all the items were noncompetitive, DLA had to
purchase the items anyway to ensure that an adequate supply was available for the
warfighter. DLA paid $1,0 million (123.2 percent) more tban fair and reasonable
prices for the seven items.

For example, in December 2004, the DSCR contracting officer purchased
353 door handles (NSN 1680-01-102-6066) used on the H-60 Blackhawk
helicopter, shown previously in Figme 2, at a unit price of$977.37 (totaling
$345,012) from Dutch Valley Supply. Dutch Valley Supply originally proposed a



$_
lUnt price of $1 ,012.40 for the door handle. The contracting officer attempted to
negotiate the price and cOllnteroffered at $.each. In res oose Dutch Valley
S~ubmitted a "cost" breakdown and a copy of the
         each, both of which failed to provide insight into the actual


                   FOR OFFICIAL USE ONLY
                                        14
                                                                       plice list of



                                                                                       b{4)
manufacturing costs. Dutch Valley Supply later lowered the price to $977.37
each and the contract was awarded. DSCR had previously purchased 679 door
handles in 2003 at unit prices ranging from $485.36 to $506.11 from _ _
the single-source manufacturer. The contracting officer documented ~
price, which had increased 93.1 percent in 12 months, was unreasonable.
However, DSCR had to procure the door handles anyway to support the
warfighter. Specifically, the contracting officer stated:

        TIle final negotiated Orrel' from Dutch VaUe.y Supply canoot be
        de.tel'lDJned fllil' Rod reasollRble in accordance with FAR 15. Based
        00 the current stock position llod II significllot numb e.' of high
        pl'iodry blu:kOl·den. it is the determination of the contracting officer
        that it is in tbe bl'St interest of the Govel'Dment to llwllrd this
        requirement llf R plica fbat ('Ronol" be determined fAir Rnd
        reasonable. [emphasis added]




contI'act. DSCR paid $
                                           mit price, totaling       $_
By perfmming cost analysis of cost data obtained during a previous audit, we
detellllined that the negotiated price is _percent more than the fair and
reasonable manufacturer unit rice of $_ _ Dutch Val1e~ly applied a
_percent markup to the                                                   for the
                                  III excessive prices and profits, including pass-
through charges, for the 353 door handles that were urgently needed by the
warfighter. This is another example of contractors abusing their single-source
status by charging the Govemlllent unreasonable prices to make excessive profits,
                                                                      fi




In DoD IG Repmi No. D-2006-055, "Spare Palis Procurements From TransDigm.,
Inc.," Febmary 23, 2006, we recommended that DLA seek a voluntaly refund for
overpriced palis when the contracting officer made a reasonable attempt to obtain
cost information but was denied the inf01U1atioll. The Blackhawk helicopter door
handle was one of those items identified. The Chief of Competition and Pricing
Division, DSCR requested the refund from TransDigm, parent company of
Adams Rite, On August 22, 2006, TransDigm, Inc., denied the request for a
voluntalY renmd stating:

        With respect to the sugge.sted voluntary refund itself, we. believe that
        such a refund is not wlllTIloted by tbe circumstances Slln'ounding the
        purchase of the parIs ill question ...

In our previous rep01i, we also recommended that DoD reverse engineer items
from single-source contractors who charge excessive prices and renlse to modify
their business practices. DSCR contracted with the Naval Air Walfare Center-
China Lake, California (China Lake), to reverse engineer the door handle and
develop a Government-owned teclmical data package. China Lake also
organically manufactured 786 door handles for $407.13 each, which was a
58.3 percent savings from the Dutch Valley Supply unit price of $977.37. We
commend DSCR for taking appropriate action to address this issue. DLA needs


                                          15
                                                                                             L
                    FOR OFFICIAL USE ONLY
                                                                                      b(4)
to continue initiating reverse engineering efforts for items that have unreasonable
pricing from single-source offerors.

We also commend DLA for its initiative in thoroughly documenting the
circumstances surrounding unreasonable prices. While every effOlt is made to
determine the price reasonable as the FAR requires, sometimes in a
noncompetitive environment it is simply not possible to detenlline evelY price fair
and reasonable because single-source offerors refuse to offer reasonable plices or
provide cost infOlmation when requested. Without. proper docmnentation of the
transaction circumstances, contracting officers may wrongly rely on the previous
price to detennine price reasonableness ill future contracts.

When the contracting officer calUlOt get. the requested cost infonnation from the
single-source manufacturer, Military Departments and Defense agencies should
note the offeror's refusal to provide the requested information in the past
perfoll11ance system in accordance with DFARS 215.404-1(a)(i)(F). Relevant
infOlmation OlllIDcooperative contractors needs to be maintained to ensure that
the information is available when future source selection decisions are made.

The Under Secretaly of Defense for Acquisition, Technology, and Logistics needs
to issue guidance that instlllcts the MilitalY Depaliments and Defense agencies to
track and periodically repOlt information about contractors that refuse to provide
requested infOlmation necessary to determine price reasonableness and take
appropriate action to address pricing issues related to specific contractors.

Cost Analysis. DoD paid about $362,422 (49.5 percent) more than the fair and
reasonable price for four items where the contract documentation or price
reasonableness code indicated cost analysis was performed. However, for tht'ee
of the four item~1Sng officer had .110 insight into manufacturing costs
and DoD paid $_~percellt)more than fair and reason~es. For
the remaining item that used mallufactluer cost data, DoD paid $ _ _
~ercellt) more than the fair and reasonable plice, including pass-through
charges.

         Dealer Cost Data. In December 2002, DSCR pm-chased 21 spool and
sleeve assemblies (NSN 1650-01-046-2257) fi-om Dutch Valley Supply on
contract SP0460-03-M-1335 at a unit ptice of $3,339.66, totaling $70,133. Dutch
Valley Supply provided a "cost" breakdown after a request from the contracting
officer.




                                    16                                                       I
                                                                                      b{4)
                  FOR OFFICIAL USE ONLY                                                      L
                                                                                             I
                                                                                             i
Figure 4 is the breakdown Dutch Valley Supply provided.



                                               lDutch
                                                VALLEY SUPPLY

                                         I 11HgsT
                                              21 2002
                                                      BREAKDOWN
       D1tt:
       SollcitatiOIl Numbet:              Sf'O.C6002ONX6S
       NSN:                               J'~-Ol- 0'11.- ~~>7




                                         -
       Patt Number:                       41002t~S-Ol)2
       Dtmiption:                         Aii}'., Spool ud Slteve
       VcndorIManufattu:r«:
       DVS Rd~~nc~ Nurnb~r.

       The £oUowin~ In(OrlJlltioD Om.,r TbJJl CQ$I or Pricing D1U is providtd IAWFAR 15.10)·).
       lhm Oul of production putS art btine sold a.s mtnnarketlsp1rts items 10 Ilt U.S. (lovesnmem.




                                          -
                                              1lWT COST         QUAN'IUY     ~     roTAI caST


               Direct Matcrn! Cost                                  21

            Higher Lavd Impertlon



               Freight I ShippiDg

              OthcI Dilect C»ts
       (t.g. DVS Labor!c VAN Services)
                                                                            -
                                                                           ••
                    Subtotal
           v<;ntral k Adnlioi51r.ltiTc

                   Total COlt

                     Profit

                   Total Price            I    $3,567.5-4   I       11            I $74.918.34]
Figure 4. "Cost" Breakdown for Spool and Sleeve Assembly

However, thweakdowll failed to provide insight into manufacturer costs and
profit, about .ercent of the total price, because the "Direct Material Cose' line
item combined this information. The direct material cost represents the price
Dutch Valley Supply paid _                the single-source manufacturer. The
contracting officer's lack of insight into this infol1llation makes it impractical to
detennine the reasonableness of the proposed price. The contracting officer
subsequently asked the DSCR Cost or Pricing Branch to help detemune pric.e
reasonableness for the item. The DSCR Cost or Pric.ing Branch determined,
based on price anal~ last two procurements, that the
proposed price of $~as fair and reasonable and recommended that the
award be made.

                                                     17
                        FOR OFFICIAL US}; ONLY                                                        b{4)
    Table 6 shows the procurement history and method used by contractiug officers to
    detennille price reasonableness for the spool and sleeve assembly since 1997.

                    Table 6. Plice Reasonableness Determinations for the
                    Spool and Sleeve Assemblies (NSN 1650-01-046-2257)
                                                                                                    Percent
       Date               Contractor      Unit Price             DLA Buyer Code-Definition          Increase          ..-
July 30, 1997                             $1,573.92           BI- Other Price Analysis Techniques
March 6, 1998                              1,792.58                BB - Dealer Competition           13.9
July 17,1998                               1,774.06                BB - Dealer Competition           (l.0)
May 21,1999                                1,901.62                  BG - Price Analysis              7.2




                         -
July 20, 2001                              2,157.45            Be - Catalog Item Sold to Gellcml     13.5
                                                                            Public
October 19,2001                            2,244,81                  BG - Price Analysis              4.0
December 20, 2002        Dutch Valley      3,339.66                  BF - Cost Analysis              48.8
                           Supply

    The previous contract prices had been determined fair and reasonable using n
    variety of price determination methods. However, none of the previous prices
    were based 011 cost analysis of manufacturer cost data. Fwiher, the contract we
    reviewed was inaccurately coded as cost analysis even though the contract
    documentation shows that the Cost or Price Branch only performed price
    analysis with no insight into manufacturing costs.

    Using cost analysis of manufacturer cost data we calculate that a fair and
    reasonable unit price was $_ _ for the spool and slee~embly. DoD paid
                an excessive p~percent,a total of~ercent more than
    t e au' an reasonable price, including DutchMillY pass-through
    charges. Table 7 details the cost-based price,            and Dutch Valley
    Supply sales prices, and excessive profit paid y DoD.

                Table 7. Excessive PI·Oftt for Spool and Sleeve Assembly
                                NSN 1650-01-046-2257
                                                                      Markup      Excessive
                                                                      Percent   Profit Percent




                                                                       -
        OIG cost-based price                           $
        _ a l e s price
        Dutch Valle Su I conh'act rice                     3,339.66

    Without insight into manufactl.U'ing costs, the contrflcting officer was not flble to
    effectively negotiate a reasonable price. DLA needs to discontinue coding an
    analysis of dealer costs as cost analysis unless a cost analysis of manufacturing
    costs has also been performed.

            Manufacturer Cost Data. In June 2005, the AnllY Aviation and Missile
                                            purchased 697 solenoid valves _
                        811agement COlllill811d
    _                   fl:om Dutch Valley Supply for $2,008.61 each, totaling about
    $1.4 Jll1   1011.



                                                  18
                            FOR OFFICIAL USE ONLY                                                                     i-.
                                                                                                               b(4)
Figure 5 shows the solenoid valve used      011   the Blackhawk helicopter.




Dutch Valley Supply originally offered a unit price of$3,269.94. But the
contracting officer combined the base and option year quantities, which caused
the total contract amount to breach the $550,000 cost or pricing threshold,
requiring the proposal to be subject to the Tmth in Negotiations Act. The
contracting officer relied ou the Defense Contract Audit Agency (DCAA)
analysis of manufactming cost or pricing data to negotiate a lower price. Using
the cost analysis, the contracting officer successfully negotiated a reduction in the
proposed prime contract unit price from $3,269.94 to $2,008.61, yielding a total
contract savings of$879,147 (38.6 percent) price reduction. Table 8 shows the
price negotiation for the solenoid valve.

                  Table 8. Price Negotiations for Solenoid Valve
                                       Unit Price                      Difference
  Proposal Cost Bleuleots      Proposed         Negotiated          Amount      Percent
  Direct MaterialJ
  • • • •iJrice
  MarkingfPackagmg
  Freight/Sh.ipping
   Subtotal
  General and administrative
    Total cost
  Profit
  Base ear                      53,269.94            52,008.61

By relying au manufacturer cost infOlmatiOll, the contracting officer was able to
obtain significant price reductions from Dutch Valley Supply's proposed price.
This example clearly shows the impodance of contracting officers obtaining


                                     19
                   FOR OFFICIAL USE ONLY                                                  b(4)


                                                                                                 L
manufacturer cost or pricing data to negotiate prices and we commend the Army
for taking appropriate steps to significantly reduce the price negotiated.



                                                  $_
Perfonning cost analysis of more recent cost data that was not available to tbe
Anny at the time of award, we calculate the cun:e~ reasonable
manufacturer unit price for the solenoid valve is               We were unable to
reconcile the specific differences that existed in the two sets of cost information
because tbe data reviewed by DCAA did not provide the same detail as the cost
information obtained by the OIG. The fil1alnegotiated unit price of$2,008.61
included Dutch Valley Suppl~:ough charges of.ercent to the
manufacturer price, totaling $. . . .for the contract.

Exclusive DistributorlDealer Competition. DSCe used dealer competition to
support price reasonableness for three of the items valued at $436,936. Using
cost analysis, we calculate fair and reasonable prices were $191,750 or a
difference of$245,186 (127.9 percent). The ineffectiveness of this [mm of
"competition" was previously identified in DoD IG Report No. D-2006-055. III
the previous report, dealers "competed" with the single-source manufacturer for
awards. In this repOlt, Dutch Valley Supply, the exclusive distributor for
numerous single-source manufacturers, "competes" with other dealers for awards.

We contacted dealers that frequently offered on solicitations with Dutch Valley
Supply to determine their source for the parts. Of the 13 dealers we contacted,
10 stated Dutch Valley Supply was their single-source and that they did not stoc.k
pa11s for these solicitations. Of the remaining dealers, two could not recall
whether Dutch Valley Supply was their source and one dealer did not respond.
Since no stock is maintained, it is clear that competition wi1lnot be independent
or fair because Dutch Valley Supply, as the single-source distributor, inherently
controls its "competitors" costs and delivelY, whic.h gives un£1ir insight and a
decided advantage in winning awards over its "competitors."

For example, on June 28, 2005, Dsee purchased 25 lever assemblies (NSN
3040-00-564-5377) used on the Advance Attack helicopter from Dutch Valley
Supply at a unit price of $2,723.93, totaling $68,098 on contract SP0740-05-M-
4049.




                                                                                             I
                                                                                             I



                                     20                                                      Ii-
                  FOR OFFICIAL USE ONLY                                               b(4)
Figure 6 shows the lever assembly used on the Advance Attack helicopter.




Figure 6. Lever Assembly NSN 3040-00-564-5377

The DSCC contracting officer considered offers from nine dealers who quoted the
single-source manufacturer's ( _ part. Not surprisingly, Dutch Valley
Supply, who was the source of snpply for the other eight dealers, had the lowest
price and delivery for the lever assembly. Table 9 shows the nnit price and the
delivery terms from the single-source distributor and other dealers.

        Table 9. Quotes for Contract SP0740-05-M-4049 (June 2005)
                                                                              Percent
                                                        DelivelY   Increase From      Excessive
          Quotes                     Q!y   Unit Price    Days        Prior Price       Profit
          I exclusive distribulor)   25    S2,723.93      155            82.6
                                     25     2832.00       195            89.8
                                     25     2,839.80      183            90.3
                                     25     2,860.13      180            91.7
                                     25     2,861.67      185            91.8
                                     25     2,899.72      240            94.4
                                     25     2,914.25      169            95.3
                                     25     2,996.09      195           100.8
                                     25     3,000.00      420           101.1


                                     34    $1,491.96
                                     25

Dutch Valley Supply's proposed price was 82.6 percent higher tllan the previous
contract for this item awarded ill August 2004, only II months earlier. However,
the contracting officer ignored the significant price increase and wrongly justified
                                      21
                  FOR OFFICIAL USE ONLY
                                                                                                  b(4)
the price based on competition between.Ulti
                                        Ie dealers. Using cost. analysis, we
calculate that Dsee paid _ercent $          more than the fair and
reasonable manufacturer unit price of $  including pass-through c.harges.

During our site visit, Dutch Valley Supply discussed that, as the exclusive
distributor, sales for the items it oversees will go through them regardless of
whether DoD buys the item directly from them or through another dealer. To
illustrate the meaning of this statement, consider if Dutch Valley Supply chose
not to note this contract. The award would have most likely been made to
                                  t $2,832 each. Dutch Valley Supply still would
have sold the item for $2,723.93. Thus,                  and Dutch Valley Supply
cxccssivc priccs and profit margins rClllilin unchanged and an additional layer of
pass-through costs would be added to the price of the item.

Clearly, the use of dealer competition has not been effective at negotiating fair
and reasonable prices in a noncompetitive environment and will only add more
unreliable ptices to the DoD procurement history.

        Competition Guidance. FAR Part 15.403-1 (c)(1)(i) defmes that a price
is based on adequate price competition if:

       two or more respollSible offerors, compE'ting indE'pE'ndE'utly, submit
       priced offers that satisfy the Governmenf.'s expressed requirement.
       [emphasis addedJ

Dsee Acquisition Guide Pa11 13. 106-3 (d)(3)(i) states competition between
dealers is acceptable.

       Competitive quotations from two or more sources will Ilonnally
       produce a price that can be detelUli.ned fair and reasonable. For
       acqnisitions within the SAT [simplified acquisition threshold],
       competition between one mallufacturer and its dealer{s), or two dealel's
       offering the product of tbE' same manufacfUl'('I' is accepfabll.'.
       [emphasis added]

Adequate competition as defined in the FAR will provide effective oversight over
prices because independent sources are available to compete against one another.
The dealer competition policy used by Dsee fails to ensure the independence of
the offerors and has been abused to justify umeasonable prices of noncompetitive
spare palts.

       Previous Coverage. In our previous repOlt, we recoUllllended that the
Director, DLA discontinue using competition between a single-source
manufacturer and dealers to dete1mine price reasonableness. The Director of
Logistics Operations, DLA padially concl1l1'ed with the reco1llmendation but
DLA officials would not prohibit the practice because they believe competition
between manufacturers and dealers could be valid in some instances.

We continue to identify problems with dealer competition in a noncompetitive or
single-source manufacturing environment. Fm1her, based on both audits, our
experience has shown that the dealer competition policy is predominantly being

                                         22
                   FOR OFFICIAL USE ONLY
                                                                                     b(4)
used in an inappropriate way and unreasonable prices are being wrongly justified
as fair and reasonable by contracting officers.

The DoD OIG and DLA Director of Logistics Operations entered mediation on
this recommendation following the previous audit. On June 28,2007, DLA
issued a procurement policy letter that stated its position is that adequate price
competition can exist when purchasing noncompetitive items from dealers or
disnibutors that compete with each other or the single~source manufacturer. We
do not believe that the DLA policy letter will effectively resolve this issue and
stop the policy from being abused in a noncompetitive environment. See
Appendix E for complete text of the DLA procurement policy letter. DLA needs
to discontinue using dealer competition to detennine price reasonableness in a
noncompetitive environment. The Under Secretary of Defense for Acquisition,
Technology, Rnd Logistics needs to review the DLA dealer competition policies
and determine whether the policies meet the FAR 15.403-1 definition of adequate
competition.

No Plice Reasonableness Determinations. We calculated that DSCC paid
$176,914 (42.3 percent) more than fair and reasonable prices for three parts
without the contracting officer making a fair and reasonable price determination.

For example, on November 19, 2004, DSCC awarded an indefinite-deliveIY,
indefinite-quantity contract SP0930-05-D-0007 to Dutch Valley Supply for the
purchase ofrotal switches SN 5930-01-385-1894 and NSN 5930-01-368-
5160)                                      The contracting officer failed to
documen a pl1ce reasona eness e enlllna ion. Figures 7 and 8 show the rot81Y
switches used on the F-16 aircraft.




Figure 7. Rotary S'witch                  Figure 8. Rotary Switch
NSN 5930-01-368-5160                      NSN 5930-01-385-1894

The contracting officer detennined that the negotiated delivery was fair and
reasonable, but remained silent on the prices oiTered. Specifically, tile contracting
officer stated in the price negotiation memorandum that:

       Since Dutch Valley [Supply] can deliver allY quantity within 100 days,
       this delivery is acceptable by tbe Government. TWs delh'el'y is
       considered to be f:dl' aDd l·eaSODable.

       The Item Managers have verified the need for t11ese items.


                                         23
                                                                                               !..
                   FOR OFFICIAL USB ONLY
                                                                                        b(4)
            Therefore, based on the abo"e information, l'ecommend that aWllL'd
            be made to Dutch Valle~' [Suppl)'] •. , [emphasis added]

     FAR 15.402, "Pricing Policy," requires contracting officers to purchase supplies
     and services from responsible sources at fair and reasonable prices. Fm1her,
     FAR 15.406-3, "Documenting the Negotiation," requires contracting officers to
     document negotiation results in the contract file. Specifically, the regulation
     states:

            (n) The contracting officer shall document .in the contract file the
            principal elements of the negotiated agreement. The documentation
            (e.g., pricc ncgotiotion mcmorandum (PNM)) shall include the
            following:


                (11) Documentation of fair and reasonable pricing.
     The contracting officer also failed to require cost or pricing data for the contract


     of$550,000 (now $650,000) established in FAR 15.403-4, "Requit~t or
     fricmt Data." Using cost analysis, we calculate tllat DSCC paid
            ercent) more than fair and reasonable prices.
                                                                             $_
     even though the expected contract amount of about $1.6 million (base contract
     $744,247 and option year $808,993) was more than the cost or pricing threshold




     DLA needs to emphasize to contracting officers the importance of making price
     reasonableness detenninations and properly documenting the contract file. DLA
     also needs to ensure cost or pricing data is requested as required by
     FAR 15.403-4.


Exclusive Distributor Model

     The current exclusive distributor model used to procure items does not provide
     best value and is less effective than the traditional DLA supply and strategic
     supplier models.

                   h Charges. Dutch Valley Supply, the exclusive distributor, charged
                      ercent pass-through charge to excessive manufacturer prices,




                                            24
                       FOR OFFICIAL USE ONLY                                                b(4)
           Table 10 shows the pass-through charges paid by DoD.

                                 T~hJe       10, Summary ofPass-Throngh Chnrges

                                                          Total Price                  Pass-Tlll'ougll Charges
                Manufacturer        Items         Contract         Manufacturer         Amount          Percent
                                       2         $ 872,695
                                       3          1,087,937
                                      22          3,799,416
                                     ---.2        1,146,457
              Total                   33         S6,906,504·

                               inconsistencies exist because auditor calculations included decimal laces.

          In several instances, the single-source manufacturer limited the amount of pass-
          through charges. Dutch Valley Supply pass-through charges were limited to keep
          the total contract amount below the $550,000 (now $650,000) threshold for the
          submission of cost or pricing data, distributor agreements in some cases spelled
          out the maximum pass-through charge, and other items were specifically marked
          by the single-so               .hlrer. The documentation we reviewed shows that
          for seven items,               limited the ass-through charge, _ _ _
          _ _ WID                                        items experienc~
          ~h charges of                             or example, t h e _ q u o t e for the
          pilot valve (NSN 4810-01-246-1382 used on the Apache Helicopter stated:




           In addition, the_distributor agreement, dated N _ 0 0 3 ,
           specifically limited the distributor marlcu on their items to               However,
           based on our analysis of the two                atts, it appears t at t e llllit in
           subsequent agreements bas been Huse 0

           When not limited by the single-somce manufacturer, Dutch Valley Supply
           nOl1llally charged higher pass-thrOH!hargeS to the manufacturer prices. Dutcb
           Valley Supply charged greater than     ercent mar.k:1.~ 33 items
           reviewed, with the largest pass-tIuoH charge being",,- The average
           Dutch Valley Supply pass-through chat'ge that was not limited was .percent
           of the excessive manufacturer prices.

           Lead Time. We found that the addition ofDutch Valley Supply to the
           procurement process has resulted in increased lead times3 for DoD. As stated
           previously, Dutch Valley Supply orders items f):ODl the single-source


3   Lead time, consisting of administrative and production lead time, is defmed as Ihe amount of time from
    the date of solicitation uuti1 the items are received by the Government. Administrative lead time
    represents the time 10 negotiate and award the contract, while production lead time represents the lime for
    the palis to be manufactured and delivered after llIl order was placed.

                                                       25
                                 FOR OFFICIAL USE ONLY
                                                                                                                  b(4)
manufacturers when the Govemmenf need becomes known. TIms, Dutch Valley
Supply can ouly add more days to the lead times when satisfying Govemment
orders.

We compared the DLA supply system administrative lead times from 2001 when
pa11s were procured directly £i:om the manufacturers with the actual
administrative lead times for the Dutch Valley Supply contracts reviewed. We
excluded 2 of the 27 DLA-managed items because the contracts did 110t have
complete shipments or sufficient documentation.

To detennine the administrative lead time for the Dutch Valley Supply contracts,
we calculated the number of days between the contract award date and the
solicitation date. To that number, we added the distributor lead time, which
represents the number of days between contract award date and the purchase
order date plus the number of days that Dutch Valley Supply had the material in
its possession. Our analysis ofthe Dutch Valley Supply contracts shows that
from the date of the conh'act solicitation to the aWlud averaged 164 days. In
addition, Dutch Valley Supply averaged an additiol1a I 15 days to issue purchase
orders to the manufacturer and to ship the material to DoD, resulting in a total
administrative lead time of 179 days. By comparison, we calculated that the
average 2001 DLA supply system administrative lead time for the 25 items
reviewed was 130 days or 49 days less when the items were procm-ed directly
from the manufacturers.

We then added the production lead times to the adminish'ative lead time to
calculate the overall lead times. We consider the productiolliead time to be the
same whether Dutch Valley Supply or DLA procures the item fl'-Oill the single-
source manufacturers. Based all DLA supply system data obtained in 2006, we
calculated that the average DLA supply system production lead time was 248
days for the items reviewed.

Overall, we calculated that the DLA had an average lead time of378 days
(130 days administrative and 248 days production) when items were purchased
directly from the manufacturers. We calculated that Dutch Valley Supply
conlmcts averaged an overall lead time of 427 days (179 days administrative and
248 days production). Thus, the addition ofD 1 C
procurement process has increased lead times                               from
the traditional DLA supply model of procming Items
manufacturers.

Inventory. Dutch Valley Supply also does not provide value by stocking items,
instead ordering items from single-source manufactmers when the Government
requirement becomes known, Thus, the items ordered from the manufacturer
sinlply "pass through" the distributor on its way to DoD, which increases lead
times and associated inventOly levels. As shown previously in Figure 1, adding a
distributor to the DoD procurement process creates an unnecessaty level of
redundancy and costs. For instance, adding a distributor creates a duplicate layer
of administration (purchase request, quote, order, etc.) and shipments before DoD
 "eceives the product.



                                    26
                 FOR OFFICIAL USE ONLY                                                      I··
                                                                                     b(4)
Dutch Valley Supply does not invest in stocking palis because they consider DLA
demand data unreliable, which lllay cause them to hold substantial inventory with
no guarantee that DoD would purchase the pal1s. In November 2006, we
perfOlmed a physical inventory and identified that Dutch Valley Supply had only
a small amount of inventOlY for just 3 of the 33 palis reviewed. Fmther, the
amount of inventory held for the 3 palis was not sufficient to satisfy normal
Government requirements. Thus, the exclusive distributor model utilized by
Dutch Valley Supply does not add value and will not pennit DoD to reduce its
inventory levels.

DLA Supply Models. DLA has been successful entering long-term strategic
supplier contracts with key suppliers. For example, the DLA-Honeywell strategic
supplier contract prices for noncompetitive palts are negotiated based on cost
data. In addition, administrative lead times have been predominantly reduced to
10 days because parts were negotiated on a long-ternl contract. We calculate the
strategic supplier model has an approximate lead time of about 258 days, after
applying the average production lead time of 248 days. The exclusive distributor
model used by Dutch Valley Supply increases lead times by 169 days
(65.5 percent) from the long-term stt·ategic. supplier model. Figure 9 shows that
the exclusive distributor model has the highest lead times of supply options.



          Production                           DL~hibutor               AdtniuLdrllti\'('       Total



                                   +                            +                           =

                248 dllys                        IS day"~

It"" ditioUl\1 DLA Supply Model

                      Productiou                            Admiuistralin,



                                                   +




LOII~' T('lIn   ('olltrAct with Strllttik l\huuhctlllu

                      Produdion                             Adtnillislr'lti\'('



                                                   +

                                                                10 dllys

Figul'e 9. Comparison of Supply Model Lead Times

Clearly, the exclusive distributor model is less effective than fhe other supply
models available and does not provide best value to DoD because increased lead
                                                     27
                            FOR OFFICIAL USE ONLY
                                                                                                        b(4)
times require DoD to invest more in inventory to ensure that warfighters have
sufficient stock available for their missions until the items can be re-procured and
delivered.

Possible Dish"ibutor Supply Model. In order to add value to 000, exclusive
distributors, like Dutch Valley Supply, need to be able to effectively negotiate
prices from single-source manufacturers. The exc.lusive distributors need to
obtain infollllation on actual manufacturing costs to ensure prices and profits
negotiated with single-source manufacturers are reasonable.

Exclusive distributors also can add value by stocking sufficient inventory to meet
DoD requirements, which would lead to reduced lead times, less DoD inventOly
investment, and improved palts availability" However, in order for this option to
be viable, the sales plice must be similar to the price that would be paid within the
DoD supply system.

DLA has different cost recovery rates for stocking palts and shipping paI1s
directly to the users (direct vendor delively) or nonstocked paJ.1s. While the rates
can vary, the stock cost recovery rate is about 32.6 percent and the nonstocked
direct vendor delivery rate is about 13.2 percent. This difference in the two rates
creates a delta of about 17 percent, which could represent a reasonable markup by
a distributor if they were to stock the items.

For example, we calculated using cost anal sis that the cost-based fair and
reasonable manufacturer unit price
was $262.21. IfDLA were to stock t e Item an sup 1t to teen user, tIle sell
price, including the stock cost recovelY rate of 32.6 percent, would be $347.69
each. Thus, in order to be a viable alternative, the distributor would need to stock
the item and direct ship it to the end user wlIile applying a reasonable markup of
17.1 percent that would result in a contract price of $307.15 to DLA. DLA would
then sell the item to the end user for $347.69, after applying its cost recovery rate
of 13.2 percent for direct shipments.




                                     28
                                                                                        b{4)
                  EOR OFFICIAL USE ONLY                                                        J-.
    Figure 10 shows the compat~stem to a possible direct
    shipment distributor model~
                 DLA stocks item       Distdblltor stocks item
                   Mannfacturer             M:mufacluH"I'
                      fllir:md                 fair and
                  reasonable price         reasonabll" price
                      $262.21                   $:.162.:.11


                         1
                 DLA sale.s price to        Distributor sells
                    end user               to DLA but ships
                                              ta end IIser
                      +32.6%                    +17.1%
                      $347.69                   $307.15
                                                              ,,
                         1                                         ......
                                                         DLAsaJes pritt'      (0
                                                            end user
                     End mer
                                                            +13. 2%
                                                                   $347 .69
                                                                        ,
                                                               It

                                                End user


    Figure 10. Traditional Supply Model Compared to Possible Distdbutor
    Model

    Thus, if the disflibutor was able to negotiate the saIlle price fi:om the single~somce
    manufacturer, stock adequate quantities of the item that could meet DoD
    requirements, and apply a reasonable pass-through charge that would result in the
    same or similar price that would be obtained through. the DLA supply system, the
    distributor model could be viable and add sufficient value. Othenvise, we do not
    see how the distributor model can add sufficient value or be an effective
    altemative procurement option for DoD.

    DoD needs to take action to discontinue using exclusive distributors unless they
    can develop a business model that provides sufficient added value to include
    inc·reased competition, obtaining cost data to effectively negotiate prices, and
    reduced lead times and inventory.


Conclusion

    Single-source mallufact111'ers are refusing to quote directly on Govemment
    solicitations providing DoD contracting officers with few aJtematives other than
    to procure the needed spare parts from exclusive distributors.


                                           29
                       FOR OFFICIAL USE ONLY                                                 b(4)
For example, in November 2003,                          nno\illc.ed its agreement with
Dutch Valley Supply to its customers.




Our review of contract docmnentation has discovered similar refusals to quote
from              Business practices such as these during a time of war clearly
do no prOVl e e best SUppOlt to the warfighter.
Dutch Valley Supply, as an exclusive distributor, states tbat it provides value to
DoD through reduced costs, improved readiness, and increased competition. We
were lillable to validate any of Dutch Valley Supply's claims and determined that
no or negligible added value was provided by the exclusive distributor.
As shown by this repOlt, DoD contracting officers [DLA, the Army Aviation and
Missile Life Cycle Management Command, and the Naval Inventory Control
Point, Philadelphia, Pemlsylvania (NAVICP-P)] paid about $3.0 million
(75.0 percent) more than the fair and reasonable prices for 33 noncompetitive
palts that cost about $6.9 million procured through an exclusive distributor. DLA
had the most difficulty negotiating fair and reasonable prices [IOm the exclusive
distributor, paying 93.0 percent more than fair and reasonable prices, totaling
about $2.7 million for 27 palis. Table 11 shows the excessive prices paid to
Dutch Valley Supply, including pass-through ch31·ges.

                Table 11. Excessive Prices Paid to Dutch Valley Supply
                                                    Total Price                Excessiye Prices
 Manufacturer (Agency)        Items      Contract        DIG Cost~Basedl      Amount       Percent

 DLA                           17       $2,994,469
 AMCOM 2                        3          540,113
 NAVICP-P                      ...1        264.834
  Subtotal                     22       $3,799,416


                                 5      $  694,519




                                                               - •-
                                1          451,937
                                 6      SI,146,457 3

                   (DLA)         3      $1,087,937

                               ...1     $ 872,695
   Totlll                      33       S6,906,5043          53,947,016 3    $2,959,488          75.0
IThe GIG cost-based prices were calculated by using cost analysis of manufacturing costs and included
a profit in line with DLA strategic supplier alliances.
2A1Uly Aviation and Missile Life Cycle Management COlllmand.
3Sli t roundin inconsistencies exist because auditor calculations included decimal laces.

                                            30
                    FOR OFFICIAL USE ONLY
                                                                                                        b(4)

                                                                                                               i
    See Appendix D for the comparison of the contract price to the cost-based
    manufacturer price and the buying agency for the 33 items reviewed"

    The Under Secretary of Defense for Acquisition, Technology, and Logistics needs
    to identify and address contractors that require DoD contracting officers to
    procure noncompetitive items through an exclusive distributor.


Management Comments             011   the Finding and Audit Response

    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Director, Defense Procurement and Acquisition Policy agreed
    with the repOlt fIDdings that DLA and DoD need to improve pricing techniques
    for detennin.ing fair and reasonable prices witlI distributors. The director also
    commented that a working group has been established to assess the magnitude of
    DoD's use of exclusive distributors, to identify pricing issues contracting
    officers encounter with dishibutors, to identify best practices for successful
    pricing, and to recommend actions that DoD needs to take to improve pricing
    techniques with distributors. Fmther, the director commented that guidance was
    clarified in the revision to Procedures, Guidance, and Infollnation section 215.4
    for when the Tmth in Negotiations Act does not apply and there is no other way
    to determine price reasonableness except to require cost data and perfOlID a cost
    analysis.

    Audit Response. We consider the conunents responsive and believe the changes
    taken will improve DoD's ability to negotiate reasonable prices from
    disU"ibutors.

    Defense Logistics Agency COlllments on Plices of Single-Source Parts. The
    Director, Acquisition Management concurred with the fmding. The director
    commented that the Govemment does not possess the manufacturing drawings
    necessary to produce these parts on a competitive basis for most of the items
    reviewed in the repod and since the items were low demand there is little
    incentive for other manufacturers to risk investing time and money to reverse
    engineer the items. The director also commented that Dutch Valley Supply or
    the single-somce manufacturers have no incentive to present reasonable prices to
    the Govenllllent. Fmther, the GOVel1Ullent has no bargaining power in these
    situations because Dutch Valley Supply and the manufacturers know the
    Govemment has no real altemative source for these single-source items. In
    addition, after successfully reverse engineering an item, DLA has expelienced
    instances ofprice hikes by manufacturers for its other single-source items.

   Audit Response. We agree that manufacturers and exclusive dishibutors like
   Dutch Valley Supply are forcing DLA and DoD to pay excessive prices for
   single-solU"ce items. As we recommended in the repOlt, DoD needs to collect
   infol1nation on these suppliers and take appropriate action to address this issue.
   If single-source contractors unreasonably increase prices of their other items
   because DoD reverse engineered one of their items, officials at the conh"acting
   agency need to engage and work with company executives to achieve resolution

                                        31
                     FOR OFFICIAL USE ONLY
                                                                                        b(4)
on pricing and should notifY DoD acquisition leaders and oversight officials if
necessary. If resolution is not achieved, DoD needs to document these actions in
the past perfOlmance system and determine altemative actions.

Defense Logistics Agency on Ineffective Pricing Tools. The Director,
Acquisition Management also commented that contracting officers rely on
ineffective pricing tools when buying single-source items below the cost or
pricing threshold ($650,000) and there is 110 effective mechanism to require the
supplier's compliance with requests for cost or pricing data. Fmiher, the 10 was
able to obtain cost information from the single-source suppliers because of its
subpoena authority. However, contracting officers do not have any ability to
compel the contractor to provide the data and the report demonstrates the
excessive prices that can be expected to occur in the absence of equal access by
contracting officers to cost infmmation.

Audit Response. We agree that there is little incentive for single-source
suppliers to cooperate with requests for cost or pricing data that are necessaty for
the contracting ofiicer to negotiate fair and reasonable prices. Over the past
decade our audits have shown that single-source suppliers have been
increasingly less willing to provide requested cost information to contracting
officers. However, we have also seen DoD continually justify excessive prices
as fair and reasonable using ineffective price analysis of previous Govemment
prices. As stated in the report, we believe DoD needs to properly document the
circumstances sUITOlU1ding unreasonable prices and take appropriate action to
address contractors that refuse contracting officer requests. With adequate
documentation of unreasonable price negotiations, DoD will be able to quantify
the full context of the problem and determine the best method for resolution.

Defense Logistics Agency Comments on Exclusive Distributor Model. The
Director, Acquisition Management commented that buying directly from
manufacturers will not necessarily eliminate the possibility of overpricing though
it would eliminate the markup charged by the distributor. Fmther, DLA has little
or no leverage to eliminate the use of an exclusive dishibutor if single-source
manufacturers require DLA to procure items fi:om them. Finally, DLA
concuned with the report conclusion that dishibutors can occasionally be useful
when they stock items and can provide quicker availability and detively even at a
higher price. However, Dutch Valley Supply, as shown by the repOlt, does not
provide value.

Audit Response. We agree that DLA was forced to procure items from
exclusive distributors by single-source manufacturers. We recommend in this
report that DoD identify and address contractors that require tIlls practice. It is
necessalY to collect information to grasp the context of its use and determine the
best approach for resolution. We agree that if distributors are able to provide
reasonable pricing and call help significantly reduce DoD inventOly levels and
lead times, the model could be viable and provide value to DoD.

Army Comments on Solenoid Valve. The Chief of Staff, Aviation and Missile
Life Cycle Management Command conunented that the Atmy takes exception to
the DoD 10 using information that was not available to the Atiny at the time of
negotiation.'! and labeling it excessive profit in AppendiX D. Fmther, the chief of
                                                                                              I
                                                                                              I
                                     32                                                       I
                                                                                              I
                  FOR OFFICIAL USE ONLY                                                       I

                                                                                       b(4)   I
staff commented that using illfOlmatioll that was not available is not an
appropriate method to determine whether the appropriate steps in cost analysis
were performed and the natural give and take of the market in fixed-price
anangements needs to be considered. The A1my requested that the totals be
adjusted for the information that the contracting officer reviewed or the item in
question be removed from the DoD IG sample. Finally, the actions ofthe
contracting officer complied with regulations and sound business practices were
utilized.

Audit Response. We clearly documented in the report that the data we used in
om calculations were not available to the A1my dm"ing its negotiation, and we
did not take exception to tbe small difference with the price negotiated from tbe
manufactmer. In fact, we discllssed the solenoid valve to show tbe impOltance
of obtaining cost data and recognized that the Anny saved $879,147 by obtaining
cost illfOlmation. The report also docwnents that the large difference between
the .A1my contract price and our calculated price stems from the exclusion of
Dutch Valley Supply pass-tlu'ough charges. However, the cost data we used
represent actual costs for the pelformance and delivery of the contract reviewed.
We believe that the use of this cost infOlmation is appropriate and cOlTectly
reflects the amount of excessive price paid under the contract. We agree that. the
business practice used by the Atmy contracting officer was appropriate and in
compliance with regulations.

Army Comments on Distl'iblltors. The Chief of Staff, Aviation and Missile
Life Cycle Management Command commented that contractors have the right to
do business with the GOVel1nllent or not and in this case the Almy considered the
decision to use Dutch Valley Supply and its price under the circumstances
reasonable. Further, some part ofthe distributor's effort relating to packaging
and marking, freight and shipping, and general and administrative costs for
oversight and logistics is necessary.

Audit Response. We agree that the Army was forced to buy the item from
Dutch Valley Supply by the single-source manufacturer. We recolll1llend in this
repolt that. DoD identify and address contractors that require this practice to
determine its impact on prices and whether DoD should take action. As shown
by the report, procuring items through Dutch Valley Supply has resulted in
paying excessive prices witbout receiving sufficient value to 000. If the
distTibutor model could provide sufficient value by significantly reducing DoD
invent.ory levels and lead times and provide reasonable prices, we agree that the
effort should be compensated. However, if the distributor model is 110t a viable
procurement altemative for DoD, we believe it. is prudent for DoD to take action
to discontinue its use.




                                    33
                  FOR OFFICIAL USE ONLY
                                                                                     b(4}
Recolumendations, Manageluent COltllnents, and Audit
  Response
    A.l. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Develop and issue guidance into the acquisition regulations that
    permits contracting officers to requu'e consent to subcontract for fixed-price
    contracts from prime contractors that exhibit significant risk of charging
    excessive prices.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy concurred with the intent of the recommendation. However, the director
    does not believe that a significant change to the regulations is wananted based on
    the circumstances identified in the repOlt. The director does believe that specific
    guidance for pricing actions with exclusive distributors is warranted to address
    the issues raised in the report and referred to his response to Recommendation
    A.1.d. for more infonnation.

    Audit Response. We consider the comments responsive.

           b. Issue guidance that reqnires the Military Departments and Defense
    agencies to track and periodically report iofot'mation about problem
    contractors that refuse to provide requested information necessary to
    determine price reasonableness and take appropriate action to address
    pricing issues related to specific conh·actors.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy concUlTed with the recommendation. The director commented that a
    policy memorandum would be issued requiring the Militaly Departments and
    Defense agencies to report any companies that refilse to provide cost or pricing
    data.

    Audit Response. We consider the comments responsive. A policy memorandum
    addressing this recommendation was issued on November 7,2007.

           c. Review the Defense Logistics Agency's dealer competition policies
    and determine whether the policies meet the Federal Acquisition Regulation
    15.403-1 definition of adequate co petition.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy concuned WitJl the recommendation. The director commented that the
    DLA policy does not conflict with the FAR and believes the repOlt ftndings
    represent implementation problems and poor use ofjudgment. The director
    commented that a memorandum would be issued to the senior procurement
    executive at DLA by December 14, 2007, tJJat would request an action plan
    detailing how DLA will ellSure proper application of FAR 15.403-1(c)(l). The
    memorandum would require contracting officers to obtain cost data and pelfonn
    cost analysis when comparable commercial sales, adequate competition, or a prior
    cost analysis is unavailable and no other valid technique can be used. Fmther, the
                                        34
                      FOR OFFICIAL USE ONLY                                               b(4)
memorandum would also point out the risks identified in the repOli when dealers
are not stocking pads, rather proposing prices based on quotes fi-om a single-
som'ce manufacturer.

Audit Response. We consider the comments responsive. On October 23,2007, a
memorandum was issued to DLA requesting an action plan. On JanllalY 7, 2008,
DLA l'esponded that its practices for detennining price reasonableness in these
situations Heed improvement so training in appropriate techniques will be
provided to underscore existing regulatOlY guidance and instmctions. DLA will
also continue to review subsequent awards in other supply chains to detemJ.in.e the
extent of the problem.

        d. Identify and address contractors that require DoD contracting
officers to procure noncompetitive items through an exclusive dishibutor.

Management Comments. The Director, Defense Procurement and Acquisition
Policy concuned with the recommendation. The director commented that a
memorandum would be issued to Military Depalimellts and Defense agencies by
December 14,2007, to reiterate the requirements in FAR 15.4 and Procedures,
Guidance, and Information section 215.4 and to relate the guidance to exclusive
distributors. Specifically, the memorandum would require all contracting officers
to obtain needed cost data, to pelfonn a c-ost analysis of all costs and markup by
the actual manufacturer, and to review the cost proposal analysis performed by
the exclusive distributor of its price from the single-somce manufacturer.
Further, when companies refiIse to provide the required data and an award has to
be made without cost analysis, it will be repOlied to Defense Procurement and
Acquisition Policy.

Audit Response. We consider the comments responsive. A policy memorandum
addressing this recommendation was issued on November 7, 2007.

A.2. We recommend that the Commanders, Army Aviation and Missile Life
Cycle Management Command and Navy Inventory Conh'ol Point.,
Philadelphia; and the Director, Defense Logistics Agency instruct
contl'acting officers to:

       a. Ensure prime contractors, like Dutch VaUey Supply, conduct
appropriate cost or price analyses to establish the reasonableness of
proposed subcontract prices and include the results of these analyses in the
price proposal as required by Federal Acqnisition Regulation 15.404-3,
"Subcontract Pricing Considerations."

Defense Logistics Agency Comments. The Director, Acquisition Management
concurred with the intent of the recommendation. The director commented that
DLA's Component Acquisition Executive would issue a memorandum addressing
the need for all acquisition managers to assure compliance witl} policies for
detenninillg price reasonableness, including pass-through c.osts from
subcontractors or other suppliers. The memorandum will also address the
submission of contractor and subcontractor cost or pricing data when these
amounts exceed the cost or pricing threshold. This action is ongoing, with an
estimated completion date of April 30,2008.

                                    35
                 FOR OFFICIAL USE ONLY
                                                                                      b{4)
Audit Response. We consider the comments responsive.

Navy Comments. The Deputy Director of Contracts, NAVICP-P concuned with
the recommendation. The deputy director commented that NAVICP-P will
ensure prime contractors conduct appropriate cost or price analyses to establish
the reasonableness of proposed subcontractor prices and include the results of
these analyses in the price to the Government. In addition, NAVICP-P, with
DCAA, has and continues to provide extended cost and pricing training to its
workforce.

Audit Response. We consider the comments responsive.

Army Comments. The Chief of Staff, Aviation and Missile Life Cycle
Management Command 1l01lconcuned with all of the recommendations. Fmiher,
the chief of staff COllllnellted that the Anny contracting officers took appropliate
steps and no nllther iustmctioll is required.

Audit Response. The Army contract files did not contain any evidence of cost or
price analysis of subc.ontract prices pelfOlmed by Dutch Valley Supply in its plice
proposal as required by the FAR. The Almy comments did not meet the intent of
the recommendation. Therefore, the Army needs to provide additional comments
to the final report that address the specific recommendation.

       b. Determine the adequacy of the cost or price analyses performed by
the prime contractor.

Defense Logistics Agency Comments. The Director, Acquisition Management.
conculTed with the recommendation. The director commented that DLA is taking
steps to raise contracting offices' awareness in determining tlle adequacy of cost
and pricing data, and to fOllliulate and implement conective actions as
appropriate. As a conective action, the director planned to fOlmally transmit the
November 7,2007, Defense Procurement and Acquisition Policy memorandmn
addressing this issue with interim implementing guidance in a DLA-wide
procurement letter, by March 31, 2008. DLA will also conduct a sampling review
ofrecent buys to determine whether the interim effol1s have corrected the issue.
This action is ongoing, with an estimated completion date of December 31,2008.

Audit Response. We consider the COlllments responsive.

Na\'y Comments. The Deputy Director of Contracts, NAVICP-P conclln~ed with
the recommendation. The deputy director commented that NAVICP-P will
continue to review and determine the adequacy of the cost or price analyses
perfOlmed by prime contractors.

Audit Response. We consider the comments responsive.

Army Comments. The Chief of Staff, Aviation and Missile Life Cycle
Management Command noncoDclined with all of the recommendations. Fmther,
the chief of staff commented that tbe fumy contracting officers took appropliate
steps by thoroughly reviewing and analyzing cost and price information, and no
fiuther instruction was required.

                                     36
                  FOR OFFICIAL USE ONL":l                                              b(4)
Audit Response. The Al1ny contract files did not contain any evidence of cost or
price analysis of subcontract prices perfonned by Dutch Valley Supply in its price
proposal as required by the FAR. The Army comments did not meet the intent of
the recommendation. Therefore, the Army needs to provide additional comments
to the fmal report that address the specific recommendation,

        c. Review and determine the reasonableness of subcontractor prices
to include obtaining cost data when necessal'y before awarding future
contntets, if the prime contractor did not perform adequate cost or price
analyses.

Defense Logistics Agency Comments. The Director, Acquisition Management
concuned with the recommendation. The director commented that contracting
officers do request cost data, and when provided, review and determine price
reasonableness of subcontractor cost, but in most cases the data were not provided
or were inadequate and were elevated to higher level management, who sought
access to cost data. The director commented that substantial improvements are
needed and after repOlting when contractors l'efuse to provide cost data to
Defense Procurement and Acquisition Policy, DLA will review the process results
to detennine if the changes have been effective and whether further emphasis is
needed. This action is ongoing, with an estimated completion date of
December 31, 2008.

Audit Response. We consider the comments responsive.

Navy Comments. The Deputy Director of Contracts, NAVICP-P coucu11'ed with
the recommendation. The deputy director commented thatNAVICP-P will
review and determine the reasonableness of subcontractor prices to include
obtaining cost data when neceSS31Y before awarding contracts if the prime
contractor did not petfOlID adequate cost or price analyses.

Audit Response. We consider the conunents responsive.

Army Comments. The Chief of Staff, Aviation and Missile Life Cycle
Management Command noncoucUll'ed with all of the recommendations. The
chief of staff commented that the repOlt showed that steps taken by the Army
Contracting Office during the review were appropriate, Specifically, the Army
coordinated with nCAA, reviewed subcontractor data, and negotiated a reduction
in price based on the recommendations.

Audit Response. With Ole exception ofthe solenoid valve, we do not see any
evidence in Anny contract files that docwnent the Army's review of
subcontractor cost data. The AllUY comments did not meet the intent of the
recommendation. Therefore, the A1UlY needs to provide additional comments to
the fmal repOlt that address the specific recollilltendation.

        d. Perform cost analysis in a noncompetitive envj)'onment to
determine price reasonableness when price analysis does not provide
sufficient information and a reliable baseline price has not been established.



                                    37
                 FOR OFFICIAL USE ONLY
                                                                                     b(4)
Defense Logistics Agency Conunents. The Director, Acquisition Management
concmred with the recommendation. The director commented that when
adequate cost data could not be secured, contracting officers have used price
analysis in some cases as a last resOlt to reach a conclusion regarding price
reasonableness. The director also commented that the inability to obtain cost data
has been elevated to higher level management, who continued to seek access to
cost data. The Defense Procurement and Acquisition Policy memorandum, dated
November 7, 2007, requires a rep0l1 when the head of the contracting agency
grants a waiver to allow an award to a distributor that refuses to provide cost data
when the cost or pricing data threshold does not apply. Fmther, DLA will
encourage the chiefs of contracting offices to seek cost data and work with
suppliers to help secure necessalY access. This action is ongoing, with an
estimated completion date of December 31,2008.

Audit Response. We consider the conunellts responsive. However, as
documented in the repolt, the price analysis of previous Government prices is not
an effective method to detelUllne price reasonableness for single-somce parts and
should not be used to justify unreasonable prices.

Navy Comments. The Deputy Director ofContr8cts, NAVICP-P concUlTed with
the recommendation. The deputy director commented that NAVICP-P will
perfOlm cost analysis in a noncompetitive envirollment to determ..i.lle pric-e
reasonableness when price analysis does not provide sufficient infOlmation and a
reliable baseline price has not been established.

Audit Response. We consider the comments responsive.

Army Comments. The Chief of Staff, Aviation and Missile Life Cycle
Management Command nonconcurred with all of the recommendations. The
chief of staff cOlDDlented that appropriate rules were followed by the fumy,
including a cost analysis perfonned April 26, 2005, as required by FAR Pait 15.

Audit Response. The All11Y comments failed to meet the intent of the
recommendation. Therefore, the Atmy needs to provide additional comments to
the [mal report that ad<h'ess the specific recommendation.

       e. Take action to discontinue using exclusive distJ:ibutors unless they
can develop a business model that provides sufficient added value to include
increased competition, obtaining cost data to effectively negotiate prices, and
reduced lead times amI inventory.

Defense Logistics Agency COlllments. The Director, Acquisition Management
concuned with the intent of the recolll1llendafion. The director commented that
DLA is obliged to buy from the exclusive distributors that represent
manufacturers of single-source items. The director also commented that DLA has
been successful in reverse engineeling some items and negotiating with one
manufacturer to change its practice of not dealing directly with the Govenunent.
DLA has a 10ng-telID business strategy ofm3ximizillg effOlts to build Strategic
Supplie' Allia ces, Supply Chain Alliances, Prime Vendor, and other 10ng-tenll
contracts. DLA plans to continue to use these approaches and vendor fairs to
emphasize the benefit of cooperative anangements, and to tactfully seek to

                                    38
                 FOR OFFICIAL USE ONLY
                                                                                       b{4)
discourage companies from entering into exc.lusive distributorships. However,
DLA cannot prevent a manufacturer's use of au exclusive distributor. TIns action
is considered complete for rep011ing pUlposes.

Audit Response. We consider the comments responsive.

Navy Comments. The Deputy Director of Contracts, NAVICP-P concun:ed with
the recommendation. The deputy director cOlllmented NAVICP-P will review the
exclusive distributor on an order-by-order basis to detemune if the distributor
provides value to NAVICP-P.

Audit Response. We consider the comments responsive.

Army Comments. The Chief of Staff, Aviation and Missile Life Cycle
Management Command llollconcUlTed with all of the recommendations. The
chief of staff conunented that fue Atmy carmot dictate that businesses cannot
utilize distributors if they determine this business model is needed to supp011 their
products. Specifically, the Commanding General, Aviation and Missile Life
Cycle Management Command has challenged the utilization of Dutch Valley by
distributors for items where they were not providing the item in a timely manner
or within a reasonable price. The chief of staff commented that the cOlll1Jlanding
general was proactive in challenging the prime contractor to provide direct
support on the items. However, it is the Army's intent to continue to challenge
the use of distributors on an individual basis when the situation warrants.

Audit Response. Even though the Allny nonconcUll'ed with the
recommendation, we consider the CODlments and actions to be responsive in
addressing this problem.

A.3. We recommend that the Director, Defense Logistics Agency:

       a. Request the Defense Contract Management Agenc}' to immediately
begin a review of Dutch VaUey Supply's purchasing system.

Management Comments. The Director, Acquisition Management conculTed
with the recommendation. The director commented that, by JanualY 2008, the
Defense Contract Management Agency would contact Dutch Valley Supply for
access to commence a review of its purchasing system. This action is ongoing,
with an estimated completion of June 30, 2008.

Audit Response. We consider the comments responsive.

       b. Instrnct the Commanders of the Defense Snpply Centers to
discontinue granting inappropriate waivers from cost or pricing data based
primarily on price analysis.

Management Comments. The Director, Acquisition Management conculTed
with the recommendation. The director commented that a number of initiatives
have been commenced to ensure changes to policy are understood, including the
issuance of two procurement letters (on July 19,2007, and November 7,2007)
and supply chain training. The director also commented tbat DLA continues to

                                     39
                  FOR OFFICIAL HSE ONLY
                                                                                        b(4)
attempt to secure cost or pricing data to avoid the use of exceptional case waivers.
However, in sihlations where cost data canJlot be obtained, conh'acting officers
will elevate to higher level management these effOlts to obtain cost data or fully
comply with Public Law 107-314 and additional guidance promulgated by
Defense Procurement and Acquisition Policy and DLA. This action is complete.

Audit Response. We consider the comments responsive.

      c. Continue initiating reverse engineering efforts for items that have
unreasonable pricing f.'om single-source ofCerors.

Management Comments. The Direclor, Acquisition Management conclUTed
with the recoilllllendation. The director commented that they have been
successftll in some reverse engineering effOlts. However, due to shOtt time
frames, limited funding, and, in some cases, a lack of economic incentive for
altelllative manufacturers, DLA planned to continue using c011'espondence,
training, and a recognition of individual and group accomplishments to increase
awareness about. the impOltance ofreducmg or eliminating egregious overpricing
by single-source distributors that add no value. This action is considered
complete for reporting purposes.

Audit Response. We consider the comments responsive.

       d. Discontinue coding an analysis of dealer costs as cost analysis
unless a cost analysis of manufacturing costs has also been performed.

Management Comments. The Director, Acquisition Management concurred
with the recommendation. The director cOlDlIlented that tbey are researching how
dealer cost analysis was coded as cost analysis and what conective actions are
needed. DLA will provide the information gathered and the basis of its
conclusion to the DoD IG. This action is ongoing, with an estmmted completion
dat.e of April 30, 2008.

Audit Response. We consider the comments responsive.

      e. Discontinue using dealer competition to determine price
reasonableness in a noncompetitive environment.

Management Comments. The Direc.tor, Acquisition Management paliially
conculTed with the recommendation. The director commented that the FAR and
the Defense Logistics Ac.quisition Directive (DLAD) allow dealer competition to
be used as the basis for price reasonableness determinations if "independence"
can be established between dealers and manufacturers. DLA also updated the
DLAD in Procurement Letter 07·08, dated June 28, 2007, which stated that the
existence of competition is not sufficient to validate the reasonableness of an
offeror's price proposal. The letter also gave two DLAD provisions that require
contracting officers to verify the objective price reasonableness of all offers and
provided guidance on detennining when competitors can be considered
independent. This action is considered complete.

Audit Response. We consider the comments responsive.

                                     40
                  FOR OFFICIAL USE ONLY                                                b(4)
       f. Emphusize to contmctiDg officers the importance of making price
reasonableness determinations, properly documenting the contract fIle, and
ensuring cost or pricing data is reqnested as required by Federal Acqnisition
Regulation 15.403-4, "Reqniring Cost or Pricing Data."

Management Comments. The Director, Acquisition Management conclUTed
with the intent of the reconunendatioll. The director cOllllllented that these issues
are covered adequately in various Federal, DoD, and agency guidance, and local
haining, and will be addressed during planned procurement seminars. This action
is considered complete.

Audit Response. We consider the C·OlllJllents responsive.




                                     41
                  FOR OFFICIAL USE ONLY
                                                                                        b{4)   ,
            B. Cost or Pricing Data Threshold
            DLA contracting officers failed to conectly calculate the threshold for
            requiring cost or pricing data as required by FAR 15.403-4. The threshold
            was not conectly calculated because DLA guidance permitted contracting
            officers to consider only the value of the basic contract and exercised
            options at the time of award versus tIle "final anticipated dollar value of
            the action, including the dollar value of all options" as the FAR requires.
            As a result, DLA failed to require cost or pricing data for eight items
            procured on three contracts valued at about $3.5 million.


Cost 01' Pricing Data Guidance

     Legislative Guidance. The Tlllth in Negotiations Act of 1962 allows DoD to
     obtain cost or pricing data (cmtified c-ost information) from Defense contractors
     to ensure the integrity of DoD spending for military goods and services that are
     not subject to marketplace Pllcing.

     Regulatory Guidance. The FAR prescribes policy to ensme that contracting
     officers meet the intent of the Tmth in Negotiations Act requu'ement for
     submission of cost or pricing data. Specifically, FAR 15.403-4(a)(1) requires
     contracting officers to obtain cost or pricing data when a pricing action exceeds
     $550,000 (now $650,000).


Determining the Threshold for Cost or Pricing Data

     DLA contracting officers failed to correctly calculate the threshold for requiring
     cost or pricing data as requiled by FAR 15.403-4. DLA guidance allowed
     contracting officers to inaccurately measure the c-ost or pricing data tJueshold by
     only considering the basic contract and options exercised at the time of award.
     Specifically, the Defense Logistics Acquisition Directive (DLAD) 15.403-4,
     "Requiring Cost or Pricing Data," stated:

            (i) Pricing a contract award (other than an undefmitized contract
            action).
                     (90) In detenuiniug whetllel' an award Uleets the $550,000
            Tl1Ith in Negotiations Act (TINA) threshold for requiring cost or
            pricing data, cODsider tbe basic contract quantity (or estimated value
            of an IDe base period), plus tb('- value of eith('-l' a quantity option 01'
            the estimated value of a peliod option tbat will be exercised at the.
            time of AWArd. [emphasis added]

     The DLA cost and pricing analyst stated that the DLAD guidance was intended to
     prevent DLA contracting officers from dividing quantity requirements in order to
     avoid the requirement for obtaining cost or pricing data. Fmther, the analyst
     believed that reqnesting cost or pricing data for quantity option contrac.ts and
     indefmite-quantity, indefinite-delivery conh'acts was unnecessary because there
                                               42
                        FOR OFFICIAL USE ONLY                                              b(4)


                                                                                                  i
                       was no guarantee that the purchases would be made and the cost or pricing
                       threshold would be breached.

                       The FAR defines the contract dollar threshold as the final anticipated dollar value
                       of the contract action to include the basic contract and all priced options.
                       Specifically, FAR 1. 108(c), "Dollar thresholds," states:

                                 Unless otherwise specified, a specific dollar threshold for the pll1'pose
                                 of applicability is the nnni Anticipated dollar vAlue of tbl.' Action,
                                 including the dollAr vAlue of All options. If Ihe action establishes a
                                 maximum quantity of supplies or services to be acquired or establishes
                                 II ceiling price or establishes the final price 10 be based on future
                                 events, the final anticipated dollar value must be the hlgh('st final
                                 pliced A!tl.'l'llAtive to the Gov('l'uml.'nt, including the doll:u value of
                                 all options. [emphAsis Addl.'dj

                       Clearly, the DLAD guidance for calculating the cost or pricing threshold is
                       conb.·ary to the FAR because it only requires the consideration of the basic
                       contract value and the value of options exercised at the time of contract award and
                       not the value of all priced options.


             Calculation of Threshold

                       DLA contracting officers failed to require cost or pricing data for two items
                       purchased on two quantity option contracts and six items on an indefinite-quantity
                       contract awarded to Dutch Valley Supply because the contracting officers'
                       calculations of the cost or pricing data threshold did not include the value of all
                       options. Table 12 shows that, through July 27,2007, DLA purchased $3.5
                       million on the three contracts.

                                         Table 12. DLA Purcbases Through July 27, 2007
                                                               Basic Ternl                             Option(s)                      Overall
                                   liSH             ~       Unit Price Total Price         Q1y     UnitPrice* Total Price              Total
   QUllntity Option
     Contl'l\cts
1. SP0475-04-C-1269        1650-01-222-3407         236     $1,897.27        $447,756      113      $1,897.27          $214,392          $662,147
2. SP0480-03-C-2134        2915-01-440-6815          168    $2,319.36        $389,652      168      $2,319.36          $389,652          $779,305
Indcfinit Quautity
      Contract
3. SP0740-04-D-7875        4730-01-033-4396                 $ 291.00                       191      $ 407.58       $   77,847        $   77,847
                           4810-00-492-8102           31      4,481.00      $ 138,911       29       4,658.40         135,094           274,005
                           4810-01-096·1055                   3,370.00                     152       3,605.69         548,064           548,064
                           4810-01-194-9613            6      3,581.00         21,486       17       3,802.20          64,637            86,123
                           4820-00-592-9949          109        593.00         64,637      218         629.11         137,146           201,783
                           4820-01-123-7658          119      2,037.00        242,403      308       2,102.51         647,572           889,975
       Subtotal                                                             S 467,437                              S1,610,360        $2,077,797
  Total (8 Items)                                                           S1,304,845                             $2,214,404        S3,519,249
*For the indeftnite quantity conlract, we calculated a weighted Average unit price based on the quantity purchased during both option years.

                                                                       43                                                                           I
                                                                                                                                                    I
                                               FOR OFFICIAL USE ONLY
                                                                                                                                      b{4)
Qnantity Option Contracts. DLA contracting officers divided requirements
behveen the base and option year by waiting to exercise the option only a few
days after awarding the basic contract, a practice that the DLAD was specifically
intended to prevent.

For example, on April 7, 2003, DSCR awarded contract SP0480-03-C-2134 for
the purchase of 168 valve assembly overhaul part kits (NSN 2915-01-440-6815)
at a base year unit price of $2,319.36, totaling $389,652. The contI·act had a
100 percent quantity option, which resulted in a final anticipated contract value of
$779,305. The contracting officer then exercised the 100 percent quantity option,
on April 9, 2003, which was 2 days after the contract award.

In another example, on March 25,2004, DSCR awarded contract SP0475-04-C-
1269 for the purchase of236 housing spools (NSN 1650-01-222-3407) at a base
year unit price of$I,897.27, totaling $447,756. The contract also had a
100 percent quantity option, which resulted in a final anticipated contract value of
$895,512. Six days after the contIact award, on March 31,2004, the contracting
officer exercised palt of the option for 113 units, resulting in a total contract value
of$662,147, which still exceeded the threshold for the submission of cost or
pricing data.

We calculate based all annual demand that DLA paid $~ercellt)
more than fail' and reasonable prices for the two items b~taiiiiilg sufficient
data. See Appendix D for the individual palt comparisons.

Clearly, the contracting officers' actions were to divide requirements between the
basic contract and options in order to circumvent the DLAD guidance. We find it
troubling that contracting officers appeared to take deliberate actions to
circmllvent guidance, which resulted in paying more than fair and reasonable
ptices at a time when valuable procurement dollars are urgently needed to SUppOlt
the warfighter.

IndefInite-Quantity Contract. A contracting offic.el' also failed to require cost
or pricing data for an indefinite-quantity contract. For example, on March 31,
2004, DSCC awarded contract SP0740-04-D-7875 for the purchase of nine items
at an estimated base year amount of $523,427, with 2 option years, totaling a final
anticipated contract value of about $1.6 million. The contracting officer
evaluated option year prices, stating in the price negotiation memorandum that the
option year prices were evaluated and determined to be reasonable, with an
annual increase of 3 percent. Based on our review of the procurement histOlY
through July 27,2007, total purchases on the contract exceeded the initial
estimate, totaling about $2.1 million.

Only four of the nine items (NSNs 4810-00-492-8102, solenoid valve; 4810-01-
096-1055, solenoid valve; 4820-00-592-9949, check valve; and 4820-01-123-
7658, calibrated flow valve) 011 cOlltra.ct were in ou~ scope. We calculate.
based on annual demand that DLA paid $_(~ercent) more than fau"
and reasonable prices for the four items re"VieWe'<r See Appendix D for the
individual p811 comparisons.

                                      44
                  FOR OFFICIAL U8~ ONLY                                                   b(4)
    Summary. The DLAD policy for detennining the cost or pricing data threshold
    needs to be modified to ensure that fuhue calculations of the threshold are
    consistent with the FAR. As shown in Finding A, conlTacting officers need to
    pelfOlID cost analysis when it is necessalY to adeq-uately determine price
    reasonableness and effectively negotiate fair and reasonable plices.

    The Under Secret81Y of Defellse for Acquisition, Teclmology, and Logistics needs
    to review and determine whether the DLA policy for detennining the cost or
    pricing data threshold is consistent with the FAR The Director, DLA needs to
    modify the DLAD to ensure that the threshold for obtaining cost or pricing data is
    calculated based Oll the "final 8lltic.ipated dollar value of the action, including the
    dollar value of all options."


Management COlllments on the Finding and Audit Response
    Defense Logistics Agency Comments. The Director, Acquisition Management
    concuned with the flllding. The director commented that the DLAD guidanc-e
    was issued 18 years ago, but now has been updated to reflect the FAR "dollar
    threshold" convention developed substantially later.

    Audit Response. We consider the comments responsive.


Recomnlendations, l\tlanagenlent Conlments, and Audit
  Response

    B.l. We recommend that (-he Under Secretary of Defense for Acquisition,
    Technology, and Logistics review and determine whether the Defense
    Logistics Agency's policy for determining the cost or pricing data threshold
    is consistent with the Federal Acquisition Regulation.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy does not believe that DLA's policy is consistent with the FAR. The
    director commented that the issue was coordinated with DLA and DLA is
    revising its policy to confolUl to the FAR.

    Audit Response. We consider the COllllDents responsive.

    B.2. We recommend that the Director~ Defense Logistics Agency modify the
    Defense Logistics Acquisition Directive to ensure that the threshold for
    obtaining cost or pricing data is calculated based on the final anticilJated
    dollar value of the action, inclusive of the dollar value of all options.

    Management Comments. The Director, Ac.quisition Mallilgement pattially
    concwTed with the recoUlmendation. The director updated guidance on how DLA
    calculates the doll81' value of a contract action for the application of the cost or
    pricing threshold. The updated guidance was communicated in Procmement
    Letter 07-28, dated November 7,2007, and now requires the calculation to
                                          45
                      FOR OFFICIAL USE ONLY
                                                                                              b(4)
include the dollar value of all priced options. DLA calculations cannot and do not
attempt to quantify or consider the value for any unpriced or lUldefinitized
options.

Audit Response. We consider the comments responsive.




                                   46
                 FOR OFFICIAL USE ONLY                                               b(4)
Appendix A. Scope and Methodology
   We conducted this performance audit from March 2006 through July 2007 in
   accordance with generally accepted Govel1lment auditing standards. Those
   standards require that we plan and perfonn the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our fmdings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for om findings and conclusions based on our audit
   objective.

   Overall. We visited and contacted individuals at DLA, NAVICP-P, the A1my
   Aviation and Missile Life C cle Mana ement Command Dutch Valle Su I

                                . During site visits to the Defense Supply Center,
    Philadelphia, Pennsylvania (DSCP); DSCR; DSCC; the Atmy Aviation and
    Missile Life Cycle Management COlDllland; and NAVICP-P, we interviewed
    buyers and contracting officers and reviewed contract documentation relating to
    acquisitions and buying experiences with Dutch Valley Supply. We also
    reviewed contract documentation to evaluate how contract prices were
    detennined to be fair and reasonable. Specifically, we reviewed price negotiation
    memorandums, simplified acquisition pricing memorandums, quotations received,
    evaluation of offers, negotiations, and justifications for awarding the contract.
    We also determined whether buyers and contracting officers followed applicable
    lllies and regulations in awarding and negotiating contracts. In addition, we
    contacted 13 dealers to determine their process for biddin on Government
    solicitations. We reviewed cost infonnation provided by
    . . . . . . . .for 31 items identified in this audit. e a so reVlewe cost
    infOlTIlation that had been obtained in a previous audit for two items. We
    reviewed recent legislation and relevant guidance related to the audit scope. We
    reviewed contIact documentatioll related to _long-telm contJ:act
   - - - - . including the contract solicitation, award, price negotiation
   iiieni0i1m<lliiii,sevei:al price anaIyse~of cost or pricing data, and
    conespondence between DSCC a n d _

   Contract Selection Process. We used the DD350 database to identify FY 2004
   and FY 2005 contract actions by Dutch Vaney Supply. We identified
   971 contract actiolls totaling $37.6 million at 24 contracting offices.

   As shown in the DD350 database, DSCR, DSCC, DSCP, the Army Aviation and
   Missile Life Cycle Management Command, and NAVICP-P were the top five
   contracting offices, representing 93.2 percent of total contract actions with Dutch
   VaHey Supply. We used Haystacks Online for Windows, the DLA Procmement
   Gateway, and DLA Intemet Bid Board System to identify the NSNs and obtained
   demand and pricing infOlmation from the Defense Operations Research and
   Resource Analysis Office for the DLA items. We identified 585 unique DLA
   items with a total annual demand of $15.0 million. Fmther, we identified
   47 items with a total annual demand of about $4.7 million with purchases in
   FY 2003 or later from Haystacks Online for Windows that were not included in
   the DD350 data. Combined, we identified 632 unique DLA items with annual
   demand of$19.6 millioll. We then selected items with an annual demand of
                                       47
                                                                                                ,.
                     FOR OFFICIAL USE ONLY                                               b(4)
$50,000 or greater and identified 107 items under this criterion with an annual
demand of about $13.7 million. For the 107 items, we selected 121 contracts
valued at $25.7 million. Three DSCC contracts we requested could not be located
and were removed from our scope. We added 10 additional contracts (9 at DSCR.
1 at DSCC) during our field work. Consequently, we reviewed 128 DLA
contracts valued at $26.8 million for 112 items (DSCR, 61 contracts valued at
$13.5 million; DSCC, 56 contracts valued at $11.8 million.; and DSCP,
11 conb'acts valued at $1.5 million).

We reviewed Haystacks Online for Windows Procurement History to identify the
NSNs and manufacturers for the Army Aviation and Missile Life Cycle
Management Command and NAVICP-P DD350 contract actions. We selected
32 Anny Aviation and Missile Life Cycle Management Command contracts
valued at $6.0 million that had contract value of at least $25,000. However, one
contract we requested could not be located. Therefore. we reviewed 31 Army
Aviation and Missile Life Cycle Management Command contracts for 25 items
valued at $6.0 million. We'also selected 16 NAVICP-P contracts valued at
$1.4 million based on high contract value or because the manufacturer was one of
Dutch Valley Supply's top six manufacturers. One NAVICP-P conb'act we
requested could not be located. Therefore, we reviewed 15 NAVICP-P contracts
for 13 items valued at $1.3 million.

Overall, for DLA, the Army Aviation and Missile Life Cycle Management
Command, and NAVICP-P for the combined 150 items, we reviewed
174 contracts valued at about $34.0 million, shown in Table A-I.

                Table A-I. Contracts Reviewed by the DIG
          Buying Agency            Contracts       Items        Contract Value'
      DSCR                              61            48          $13,459,781
      DSCC                              56            53           11,791,663
      DSCP                              .ll          .ll            1,517,940
       DLA Subtotal                    128           112          $26,769,384

      AMCOM 2                           3             25           $5,969,387
      NAVICP-P                          12            13            1,256,256

        Total                          174          150          S33,995,027
      I Contmct value repl'esen1s the contract quantity multiplied by the contrl\ct
      uuit price.
      2A1my Aviation and Missile Life Cycle Management Command.




Cost Data Selection. We focused our review of cost data to noncompetitive pads
so competitive items were eliminated from our scope. We reviewed the six
manufacturers with the highest DLA amlllal demand of noncom etitive alts.
The six manufachlfers were

had 73 DLA items with an annual demand of $9.2 million.
                                             48
                    FOR OFFICIAL USE ONLY
                                                                                      b{4)
6 additional items from the Atmy Aviation and Missile Life Cycle Management
Command and NAVICP-P with an an11ual demand of about $1.3 million. Thus,
our total population consisted of 79 items that had an annual demand of
$10.5 million. From that population, we selected 43 items that had an allllual
demand of$8 million (76.6 percent). We selected 37 DLA items based on highest
allllual demand, contract amounts that exceeded the cost or pricing tln'eshold, and
significant price increases. The remaining six items were selected based on the
highest dollar value contracts from the Anny Aviation and Missile Life Cycle
Management Command and NAVICP-P.

We did not request cost infOlmation for the eight _ _items selected
because, in Febl11alY 2006, we issued a repurt lha~nces of excessive
prices. We used cost infOlmation obtained .              .               contained
in the sco e of his audi Vle later dropped
                         because of the low number of palts that represented only
a out . percent 0 t e population. Overall, we reviewed cost data for 33 palts
that had an anllual demand of $6.4 million (61.2 percent) of the population
(Table A-2).

       Table A-2. Items Selected for Review and OIG Coverage
                      Selected Population                    orG Reviewed
                                 Annual                       Annual
 Buying Agency      Items       Demand!           Items      Demand l       Percent
 DSCR                   34      $3,786,344               8   $1,635,307         43.2
 DSCC                   35       4,952,185             19     3,531,655         71.3
 DSCP                   ~          504,079            ...Q            0          0.0
  DLA Subtotal          73      $9,242,608            27     $5,166,962         55.9

 AMCOM2                  4        $992,050              4      $992,050        100.0
 NAVICP-P                2         264,834              2       264,834        100.0

   Totnl                79     S10,499,492            33     $6,423,846         61.2

 I DLA annual demand was calculated by multiplying the aveL1lge aJllual demand
 quantity by the Mean Acquisition Unit Cost. AMCOM lind NAVICP-P annual
 demand was calculated by multjplying the average alillual demand quantity by the
 contract unit price.
 2 Ann Aviation and Missile Life




Review of Cost Data. To the CO!l1:s provided by each manufacturer, we added a
profit in line with DLA strategic supplier alliances to calculate a cost-based price.
Due to time constraints, we did not evaluate the selling, general, and
administrative expenses, corporate allocations, or the facilities capital cost of
money rates charged by the contractors. We applied these costs as proposed by
the contractors.

~07            standard costs from              for seven items because
_            did not have actual cost infOlmation (six items) or the data was based
on an uneconomical quantity. To determine the manufacturing cost for these
seven items, we de-escalated the 2007 cost standard to the year of contract award

                                         49
                    FOR OFFICIAL USE ONLY                                               b(4)
and applied the corresponding overhead and support rates. We also eliminated
unallowable costs such as bad debts, contributions, and entertainment, from
                      cost information.

Use of Computer-Processed Data. To perfolID the work, we relied on
computer-processed data from DoD, DLA, and commercial sources. We used
data from the DD350 database to identify contracts and contracting offices to
review duri.ng the audit. We obtained Standard Automated Material Management
System and Business System Modemization system data £i:om the Defense
Operations Research and Resource Analysis Office to include demand data and
pricing infolmation. We also obtained the procurement history for all items
reviewed from Haystacks Online for Windows, a commercial system. The
computer-processed data and proem-ement histOly data were detemlined reliable
based on a compallson with adual source documents. In addition, we have used
Haystacks Online for Windows for the past several audits and have not found any
material enors or discrepancies. We did not find errors that would preclude the
use of the computer-processed data to meet the audit objectives or that would
change the conclusions reached in the repOlt.

Government Accountability Office High-Risk Area. The Govenunent
Accountability Office (GAO) has identified several high-risk areas in DoD. This
repOlt provides coverage of the "Defense Contract Management," ''Defense
Supply Chain Management," and "Defense Approach to Business
TrallsfOlmation" lligh-risk areas.




                                   50
                 FOR OFFICIAL USE ONLY                                            b(4)
Appendix B. Prior Coverage
      During the last 10 years, GAO and the DoD IG have issued 34 reports discussing
      the reasonableness of commercial and noncommercial prices of weapon systems
      and noncompetitive spare palts. Unrestricted GAO repOlts can be accessed over
      the lntemet at http://www.gao.gov. Umestrid.ed DoD IG reports can be accessed
      at http://www.dodig.miVaudit/reports. Dates in parentheses indicate redacted
      verSIOns.


GAO
      GAO RepOlt No. GAO-07-281, "Defense InventOly: Opportmllties Exist to
      Improve the Management of DOD's Acquisition Lead Times for Spare PaIts,"
      March 2, 2007

      GAO RepOlt No. GAO-06-995, ''DOD Contracting: Effolis Needed to Address
      Air Force Commercial Acquisition Risk," September 29, 2006

      GAO RepOlt No. GAO-05-169, "Contract Management: The Air Force Should
      Improve How It Purchases AWACS Spare Parts," Febl1lalY IS, 2005

      GAO RepoltNo. GAO-02-565, "Defense Acquisitions: Navy Needs Plan to
      Address Rising Prices in Aviation PaIis," May 31, 2002

      GAO RepOlt. No. GAO-02-452, "Defense IllventOlY: Trends in Services' Spare
      Parts Purchased fl.-om the Defense Logistics Agency," April 30, 2002

      GAO Report No. GAO-02-505, "Defense Acquisitions: Status of Defense
      Logistics Agency's Efforts to Address Spare Palt Price Increases," Aplil 8,2002

      GAO Report No. GAO-Ol-244, "Performance and Accountability Series: Major
      Management Challenges and Program Risks, Department of Defense," Janu8IY I,
      2001

      GAO Report. No. GAO-01-23, "Defense Acquisitions: Prices of Navy Aviation
      Spare Paits Have Increased," November 6, 2000

   GAO RepOlt No. GAO-01-22 (OSD Case No. 2080), "Defense Acquisitions:
   Price Trends for Defense Logistics Agency's Weapon Systems Peuis,"
   November 3, 2000

      GAO RepOlt No. NSIAD-00-123, "Defense Acquisitions: Prices of Marine Corps
      Spare Pmts Have Increased," July 31, 2000

      GAO Repolt No. NSlAD-00-30 (OSD Case No. 1920), "Defense InvelltOlY:
      OppOliunities Exist to Expand the Use of Defense Logistics Agency Best
      Practices," Janum'y 26, 2000

                                         51
                       FOR OFFICIAL USE ONLY                                            b(4)
   GAO Report No. NSIAD-OO-22 (OSD Case No. 1903), "Contract Management:
   A Comparison of DoD and Commerc.ial Airline Purchasing Practices,"
   November 29,1999

   GAO Repolt No. NSIAD-99-90 (OSD Case No. 1808), "Contract Management:
   DoD Pricing ofConnnercialltems Needs Continued Emphasis," Jime 24, 1999


DoDIG
   000 10 RepOlt No. 0-2007-119, "Procurement of Propeller Blade Heaters for the
   C-130 Aircraft," August 27, 2007

   000 IG RepOlt No. D-2006-122, "Commerc.ial Contract for Noncompetitive
   Spare Palts With Hamilton Sundsft'and Corporation," September 29,2006

   DoD IG Report. No. D-2006-115, C<Coulluercial Contmcting for the Acquisition of
   Defense Systems," September 29,2006

   DoD IG Repolt No. D-2006-055, "Spare Palts Procurements From TransDigm,
   Inc.," Febmary 23, 2006

   DoD IG Report No. D-2004-102, "Contracting for and Perfonnance of the C130-J
   Aircraft," July 23,2004

   000 IG Repolt No. D-2004-064, "Acquisition of the Boeing KC-767A Tanker
   Aircraft," March 29,2004

   DoD IG RepOlt No. D-2004-012, "Sole-Source Spare Pal1s Procured From an
   Exclusive DislTibutor," October 16,2003

   DoD IG RepOlt No. D-2002-112, "Industrial Prime Vendor Program at the Air
   Force Air Logistics Centers," June 20, 2002

   DoD IG Repolt No. D-2002-059, "Results of the Defense Logistics Agency
   Strategic Supplier Alliance with Honeywell Intemational, IncOl]Jorated,"
   March 13,2002

   DoD IG RepoltNo. D-2001-171, "Industrial Prime Vendor Program at the Naval
   Aviation Depot - Cbeny Point~" August 6, 2001

   DoD IG Report No. D-2001-129, "Contracting Officer Determinations of Price
   Reasonableness When Cost or Pricing Data Were Not Obtained," May 30, 2001

   DoD IG RepOlt No. 0-2001-072, "Industrial Prime Vendor Program at the Naval
   Aviation Depot - NOith Island," March 5, 2001

   DoD IG RepOlt No. D-2001-001, "Contract Award for the Fluid Flow Restrictor
   Spare Prot," October 3,2000


                                     52
                    FOR OFFICIAL USE ONLY
                                                                                     b(4)
                                                                                      !~
                                                                                      ,

DoD IG RepOltNo. D-2000-192, ''Results of the Defense Logistics Agency
Strategic Supplier Alliance for Catalog Items," September 26, 2000

DoD 10 RepOltNo. D-2000-099, "Procurement of the Propeller Blade Heaters for
the C-130 and P-3 Aircraft," March 8,2000 (Jlme 12,2000)

DoD 10 RepOlt No. D-2000-098, "Spare Palis and Logistics SUPPOlt Procured on
a Vutual Prime Vendor Contract" March 8, 2000 (June 14,2000)

DoD 10 Report No. 99-218, "Sole-Source Noncommercial Spare Palts Orders on
a Basic Ordering Agreement," July 27, 1999 (October 12, 1999)

DoD 10 RepOlt No. 99-217, "Sole-Somce Commercial Spare Palis Procmed on a
Requirements Type Contract," July 21, 1999 (August 16, 1999)

DoD 10 Repolt No. 99-026, "Commercial Spare Parts Purchased on a Corporate
Contract," October 30, 1998 (Janumy 13, 1999)

DoD 10 Repolt No. 98-088, "Sole-Source Prices for Commercial Catalog and
Noncommercial Spare Parts," March 11, 1998 (October 13, 1998)

DoD 1G RepOlt No. 98-064, "Commercial and NoncoJIlmercial Sole-Source Items
Procured on Contract N000383-93-0-Mll1," Feblllary 6, 1998 (June 24, 1998)




                                 53
                FOR OFFICIAL USE ONLY
                                                                               b(4)
Appendix C. Other Matters of Interest-Cost or
            Pricing Data Waiver
                      Long-Term Contract. The DSCC long-tenll contract with
                     ft1l1her illustrates the ineffectiveness ofprice analysis without
        establishing the validi and reasonableness of the prior price, The distributor
        agreement behveen                   and Dutch Valley Supply began to wind down in
        late 2006 and                  egan working on a long-term contract with DSCC.

        On Se tember 29,2006, DSCC awarded indefinite-quantity contract
                   ith 25_a11s
                             that had an estimated base year contract value 0
         3.4 1DJ lion to           The contracting officer determined prices fair and
        reasonable base   pl1ce analysis of previous procurements,

                For evaluation purposes, the historical price that most closely matched
                the ClUl'ent annual demand quantity while still being one of the most
                recent awards was selected for historical compal'ison. Historical prices
                that appeared out oCthe ordinary (spikes) were Dot selected as they may
                have been based on an ulU:easonable price 01' an urgent situation which
                would 110t be the normal procurement situation. In reviewing tbe
                Wstorlcal data for the NSNs being consldl'red fOl' alVlu'd, most
                items showed R fairly consistent price incl'ease over the years; lIod
                for the most part, pliOl' award pliet's W(,l'e detl'rmiul'd fail' ADd
                rensonnble bnsed on compalisoll to prior plic('(s) d('t('rmilled
                r('asoDlIbl(' via price analysis, (emphasis Added]

        On June 26, 2006, the Commander, DSCR· waived the submission of cost. or
        pricing data because the commander believed that using price analysis of previous
        Govenunent procurements was sufficient and cost data were not necessary to
        establish price reasonableness,




                                                                         Base on pnce
        analysis, the contracting officer believed the offered prices were reasonable
        be,cause the prices were reduced 20,6 percent from the adjusted previous contract
        pnce,




• The parts solicited on the       long-tenn contract are mallaged by the Aviation Detachment at
  DSeC, but operates wlder DSCR Command. Therefore, the COJllmander, DSCR signed the, waiver,

                                                  54
                            FOR OFFICIAL USE ONLY
                                                                                                   b(4)
         Table C-l shows the _ _ long-telID contract price and the previous
         contract price (adjust~on and significant quantity differences).

            Table C-1. Contract Price Compared to Previous Price (price Analysis)
                                        Contract. Price              Pre.vions Price                   Difference
         NSN                           Unit         Total           Unit         Total             Amount.    Percent
                                                   $ 48,573                    $ 49,668          ($ 1,096)         (2.2)
                                                    176,026                      252,022            (75,996)      (30.2)
                                                      32,932                      54,427            (21,496)      (39.5)
                                                     61,173                       78,627            (17,454)      (22.2)
                                                    174,959                      187,142            (12,184)       (6.5)
 Total                                             $493,662"                   $621,887'          (S128,225)      (20.6)

'Slight rOlUldillg inconsistencies exist because auditor calculations included decimal places.


         However, perfOlmil1g cost analysis, we detennined that the long-teon contract
         prices negotiated for the five items included excessive profit of 84.7 percent or
         $226,416 based on expected contract demand, as shown in table C-2.

         Table C-2. Comparison of Contract Price to Cost-Based Price (Cost Analysis)
                                        Contract Price             OIG Cost-Based Pricel            Excessive Profit
                                       Unit        Total            Unit        Total              Amount     Percent
                                                  $ 48,573                      $ 25,341           $ 23,232     91.7
                                                   176,026                        84,573             91,453    108.1
                                                    32,932                        15,071             17,86]    118.5
                                                    61,173                        31,060             30,113     97.0
                                                   174,959                       111,202             63,757     57.3
 Total                                           $493,662 2                     $267,247           $226,416     84.7

IThe OIG cost-based prices were calculated by using cost analysis of actual manufacturing costs and iuc1uded a
profit in line with DLA sfI'ategic supplier alliances.
2 SIight rOlmdillg inconsistencies exist because auditor calculations included decimal places.



         Clearly, price analysis was not effective in negotiating fair and reasonable prices
         because the comparison prices were not a valid representation of actual costs.

         DoD 1G Repolt No. D-2006-055, "Spare Parts Procurements From ransDigm,
         Inc.," February 23, 2006, identified that. DSCC paid     percent more than fair and
         reasonable prices because of a similar inappropriate waiver based solely on price
         analysis. Granting a waiver of cost or pricing data based on pl1ce analysis,
         especially for noncompetitive items, increases the risk that DoD will not
         accurately establish a fair and reasonable price and will pay excessive prices.

         Congress has expressed COllcem to DoD over inappropriate or questionable
         waivers being grant.ed. Section 817 of Public Law 107-314, "Bob Shimp
         National Defense Authorization Act for Fiscal Year 2003," states that the
         Secretary of Defense must-issue guidance 011 the circumstances where it was
         appropriate to issue an exceptional case exception or waiver of cel1ified cost or
         pricing data and cost accounting standards. The legislation also outlines the
                                                     55
                              FOR OFFICIAL USE ONLY
                                                                                                                     b(4)
parameters for an exceptional case waiver. Specifically, Section 817(b) of the
Act stated:

       (b) DET RMINATION REQUIRED FOR EXCEPTIONAL CASE
       EXCEPTION OR WAIVER - The guidance shall, at a minimum,
       include a limitation that a grant of an exceptional case exception or
       waiver is appropriate WiOI respect to a contract, subcoutract, or (in the
       case of submission of certified cost and pricing data) modification only
       upon a detemlillation that-
                (1) the property or services cawlOt reasonably be obtained
       IUlder the contract, subcontract, or modification, as the case lUay be,
       without the grant of the exception or waiver;
                (2) Ole price can be detennined to be fair and reasonable
       without the submission of certified cost or pricing data or the
       application of cost accollnting standards, as the case may be; and
                (3) there are demonstrated benefits to granting the exception
       or waiver.

On June 29, 2007, the Director, Defense Procurement and Acquisition Policy
issued a memorandum to the Deputy Director for Logistics Operations, DLA to
express concelll that DLA continues to issue exceptional case waivers that do not
meet the requirements of Section 817 of Public Law 107-314 and to obtain an
action plan to COll'ect DLA's misllse of waiver authority.

DLA needs to discontinue granting inappropriate waivers from cost or pricing
data based primarily on price analysis.




                                         56
                   FOR OFFICIAL USE ONLY                                            b(4)
                            Appendix D. Contract and OIG Cost-Based Manufacturer Prices
                                                                                                                                                                                     OIG Cost-Based
                                                                                 Buying                                                 Contract Price                              Manufacturer Price).        Excessive Profit
                                                                                 Activityl           .Allii                        Unit              Total                         Unit           Total       Amount        Percent

                                                                               OSCR                     58                       $3,339.66                $ 193,700
                                                                               DSCR                     98                        1,897.27                  185,932
                                                                               OSCR                     88                        3,233.78                  284,573
                                                                               DSCR                     46                        2,258.95                  103,912
                                                                               osec                    348                          411.99                  143,373
                                                                               DSee                     70                        2,753.35                  192,735
                                                                               OSCR                    115                        2,319'.36                 266,726
                     VI
                     --.l
                                                                               DSee                     36                        2,723.93                   98,061
                                                                               OSCC                     66                        1,839.10                  121,381
                                                                               osee                     56                        3,245.60                  181,754
                                                                               osee                     38                        5,288.25                  200,954
                                                                               DSee                    120                        1,260.24                  151,229
                                                                               osec                     44                        2,968.00                  130,592
                                                                               OSCC                     18                        7,29'8.00                 131,364
                                                                               osee                     51                        4,129.35                  210,597
                                                                               osee                    127                        1,563.2$                  198,537
                                                                               OSeR                    181                        1,099.73                  199,051            _
                             DLA Subtotal (17 items)                                                                                                      $2,994,469                             $1,664,734   S1,329,735       79.9




                                                                                                                                                                                                               II
                                                                               AMCOM                    101                      $1,888.20                 $190,708
                                                                               AMeOM                    103                       2,052.91                  211,450

                             .   .                                 (3)
                                                                               AMCOM                     63                       2,189.76                  137,955
                                                                                                                                                           S540,113                                S462,849

                              Note: See the footnotes at the end ofthe appendix.




        0"
       .-..
         A.
       .......   ~




-_..             ~--.-------'.-_.    ----   ---   ~   ..   ,.~.-    .~   ..   _-,_ ..   _.~._--_   _-- ..   "   ~   .-   _~   ..,._,,-_. , -   -.'   _.           .    _   .
                                          Appendix D. Contract and OIG Cost-Based Manufacturer Prices (cont'd)
                                                                                                                                                                              DIG Cost-Based

                                                NSN
                                                                 Buying
                                                                 Activity I
                                                               NAVICP-P
                                                               NAVICP-P
                                           NAVICP-P Subtotal (2)
                                                                                        AD<Y
                                                                                           4
                                                                                         136
                                                                                                                         II
                                                                                                                                   Unit
                                                                                                                                        ConTract Price
                                                                                                                                                     Total
                                                                                                                                                      $ 35,424
                                                                                                                                                        229,410
                                                                                                                                                       5264,834
                                                                                                                                                                            Unit

                                                                                                                                                                            -             - ••
                                                                                                                                                                             Manufacturer Price3
                                                                                                                                                                                           Total



                                                                                                                                                                                           5221,107
                                                                                                                                                                                                         Excessive Profit
                                                                                                                                                                                                       Amount



                                                                                                                                                                                                         543,727
                                                                                                                                                                                                                     Percent



                                                                                                                                                                                                                        19.8

                                           • • • • Subtotal (22)                                                                                            $3,799,416                   52,348,691    S1,450,725      61.8




                                  VI
                                                                            osce          13                                   $4,481.00                        $ 58,253
                                  00                                        DSCe          75                                    3,370.00                          252,750
                                                                            osee          63                                    2,189.23                          137,921
                                                                            osce         120                                      593.00                           7t,160
                                                                            DSCC          87                                    2,005.00                          174.435
                                                                                                                                                                                                                      -
                                                                                                                                                                                                       - •
                                           DLA Subtotal (5)                                                                                                      5694,519                  $290,299     $.404,22]     139.2



                                           AMCOM Subtotal (I)

                                            PerkioElmer Subtotal (6)
                                                                            AMCOM        225                                   $2.008.61 5                      $451.937
                                                                                                                                                                S451,937

                                                                                                                                                            SI,I%,457
                                                                                                                                                                            -              $336,.231

                                                                                                                                                                                           $626,530
                                                                                                                                                                                                        S1I5,706

                                                                                                                                                                                                        S519,927
                                                                                                                                                                                                                       34.4

                                                                                                                                                                                                                       83.0


                                                                   DLA)



                                                                                                                                                                                                       III I
                                                                                                                                                                            • •
                                                                      OSCC              5,469                                       $ 51.13                 $  279,630
                                                                      DSCC              1,508                                        109.27                    164,779




                                                          -
                                                                      DSCC              1,396                                        460.98                    643.528
                                                                    ubtotal (3)                                                                             $1,087,937                     5711,581     $376,356        52,9

                                            Note: See the footnotes at the end ofthe appendix.


                      ......
                       CT
                        ~
                      .......



_ _ _ _ •• _ _" _ _    _        ._.   H     ._   ~   •     •   __ ".' ••0      ••   •     ••   ~   •••   _~   •••   ~   •• _   ••••••• __   ••   •••••_ .
                Appendix D. Contract and OIG Cost-Based Manufacturer Prices (cont'd)
                                                                                                                 OIG Cost-Based
                                           Buying                            Contract Price                    Manufacturer Price3                Excessive Profit
                                           Acrivitv l    A00    2
                                                                        Unit              Total                Unit          Total              Amount         Percent




                    Total (33)
                                            DSCR
                                            DSCR
                                 Subtotal (2)
                                                          828
                                                          499
                                                                        $464.96
                                                                         977.37
                                                                                           $384,n7
                                                                                            487,708
                                                                                           S872,6-95

                                                                                          56,906,504
                                                                                                          II                    - • •$260,215

                                                                                                                              53,947,016
                                                                                                                                                --
                                                                                                                                                  5612,480

                                                                                                                                                S2,959,488
                                                                                                                                                                235.4

                                                                                                                                                                 75.0

                'The buying activity that awarded the contract we reviewed (AMCOM - Army Aviation and Missile Life Cycle Management Command; DSCC-
           Vl   Defense Supply Center Columbus; DSCR - Defense Supply Center Richmond; and NA VICP - P - Naval Inventory Control Point Philadelphia).
           \0   2Annual Demand Quantity (ADQ) fOF the DLA items is based on average inventory requisitions for the previous 2 years. ADQ for the Navy and Army
                items is based on average annual contract purchases for tbe previous 4 years.
                3The OIG cost-based prices were calculated by using cost analysis and included a profit in lme with DLA strategic supplier alliances.
                1             priced this item based on cost information with the expeetati,on it would be asked to provide certified cost or pri.cing data However, the
                contracting officer never requested_o submit the certified cost or pricing data.
                SContract was ne2.otiated usi.ng certified cost or or1.cim:?; data orovided to 000.




 0-
..-.,
  ~
........


                                                                                                  . __     _.....   .   "-.   . ._      -   .
Appendix E. DLA Guidance on Dealer
            Competition
                                                                                                                  I·



                                            lllif'ENSE LOGISTICS AGl:NCY
                                                    HEADqUMITl'.:R$
                                     a72!; JOHN J. KINGMAN ROAD, SUlTg 2533
                                       FORT BEI.VOIR, V'RGIN'~ :<<.060'6221



 IN~PW
                                                                                                 JUN 2 8 2007
  F€FER TO   J.7
             PROCLTR 01· 08

             MEMORANDUM FOR ~ROCLTR DISTRIBUTION LIST
             SUBJECT: Price Competition for Single Mantlfactunng Souret: Items OlTned l>yan Orighlal
                      EquipnlClit "bnu[scturer (OEM) SlId its DiSlribllt<'ll'l:. Dealers andlor Other
                      Non-Mal1ufacturing Suppliers

                     This PROCLTR addresses tho rcquiroments of FAR Subpart IS,4 in the context of
             single source \lr(lrntenttflls. defined for present purposes as procurements of items produced by
             only one manufacturer (OEM) because oftll3t manufacturer's exclusive possession of
             proprietary infomlation or other inteUectual propeny rlllhts (such as a patent).

                      The Defense Logistic Agency's position is that adeQuate price competition under the
             T""h In Negoliations Act (TINA) (Ste FAR 15.403-I(b)(I) and (eXl)), and for making plice
             reasonableness determinations where TINA would not apply for Olher reasons, can exist, ~ven
             when Ihe Oovemmelll purchases sinSlc !Durce items manuf~cturcd by an OEM, ifindependent
             dealers or di,tributori of the OEM's pr<lduC!.s compete with each other and/or with the OEM for
             Government conClacts. llle critical point is that there n:AJst be a re.asonable basis fur finding
             thBlthe dealePo; ordlSlributolS are-truly independent, both of the OEM and ofeach other. Thus,
             ifille OEM e~el1S undue conllol over dealers ordiSlrib~tor~, fOf ;nslance by controlling the
             rc:-alc pr;«l3 thcso dcalcn or distributors may charge., t~re would not be adequate price
             competition. If the deal~ts and distnbutors have access to adequate supplies of the OEM's
             product and may set their own prices (cI'el\ iflhose prices, by \;rtue of economic exigel1des,
             vary very lillIe from one dealer or distributor toal1other),thcn Idtquate price c<)mpetition may
             be found to exist for TINA purposes and for buys where TINA would not apply. Note that
             Defen~ I.ogistics Acquilition Directive (DLAD) 52.211-0002, COIIditions for Evaluatlon and
              Acceptance of Part-NUiIlbcled Items, commonly referroo Ie as the 'Products Offered Clause, •
              must be included in solicitations as appropliate. AdditlOll3Hy, the existence ofc{lIupetilioll i~
              nOl, alone, sut11ciclItlo V<llid~tc lhe reasonableness ofan olleror's price proposal; Dl.AD
              l3.t06.3(b){90XAXi ii) amI 15.403-I(c)(l) require Contracting Ofticers to verify the objective
              price reasonableness of all offers.

                      To summarlzt; lile f~ctthatlequircd supplifS ,u" pmduccdonly by one OEM doe> nOC,
             itself, m«n that .dequale price competition for Govemment con trlct Sto provide those supplies
             is impossible to achieve. Instead, \Wen independent dealers or distributors of OEM-produced
             supplies compete for Government business with o~ another Of with the OEM, the Government
             salislies requirements for price reasonableness det(filltnatlolls, providC'd the proposed source
             offers the OO"cmmcnt objectively fdr and rea«lnable prices,




                                                             60
                                 FOR OFFICIAL USE ONLY
                                                                                                I-
                                                                                                I




                                                                                 2


       ThisPROCLTR is el'redive immediately. More spe(;Hic guidance in Ihe fom) ofDLAD
covefagc is forthcoming. T~lnt ofconl~OCLTR is                               J-13,
(703) 767-_ DSN 427'-oc e-mail: ~dla.mil.



                                           ~,~~
                                           Componenl Acquisilion Executive




                                          61
                  FOR OFFICIAL USE ONLY                                                  b(4)
                                                                           ,:-




Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secrctaly of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretaly of Defense (Comptroller)/ChiefFinancial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (ProgramlBudget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretaly of the Anny (Financial Management and Comptroller)
COlllmander, Army Materiel Command
  Commander, Army Aviation and Missile Life Cycle Management Command
Auditor General, Department of the Anny

Department of the Navy
Assistant Secretaly of the Navy (Manpower and Reserve Affairs)
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point, Philadelphia, Pellllsylvania
Naval Inspector General
Auditor General, Depaliment of the Navy


Department of the Air Force
Auditor General, Depaliment of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center, Columbus, Ohio
   Commander, Defense Supply Center, Richmond, Virginia
   Commander, Defense Supply Center, Philadelphia, Pennsylvania
Director, Defense Contract Audit Agency

Non-Defense Federal Organization
Office of Management and Budget



                                          62
                        FOR OFFICIAL USB ONLY
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
                                                                            !
                                                                            j.
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Anned Services
Senate Committee on Homeland Security and Govemmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Anned Services
House Committee on Oversight and Govenllllent RefOlID
House Subcommittee on Govemment Management, Organization, and Procmement,
  Committee on Oversight and Goven1lllenf RefOlUl
House Subcommittee on National Security and Foreign Affairs,
  Conunittee 011 Oversight and Government RefOlUl




                                     63
                     FOR OFFICIAL USE ONLY
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments


                           OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                        :1000 O~F~Nse: peNTAGON
                                       WASHINGTON. DC 20301·3000




                                                                                  OCT 18 2007
     DPAP/CPF
     MEMORANDUM FOR TECHNICAL DIRECTOR, AUDIT FOLLOWUP & GAO
                      AFFAIRS, OFPICE OF n-lB INSPECTOR GENERAL,
                      DgPARTMI3NT OF DEPBNSE

     1HROUGH: DIRECTOR. A<::QUISlTlON REl:iOURCES AND ANALYSIS                         'fott;~   '°1
     SUHJECT: Draft Report 011 Procuring NonCQmpctitive Spare l'arts Through all
                     Exclusivo Distributor (Pl'oject No. D2006-DOOOCH-0056.000)

            Your draft rcpolt dated September 6,2007, requested management comments on
     recomlllondations for tho Under Secrelary of Dcfenso for A~ui$iti()l1, Technology, Hnd
     Logistics (AT&L). Commenls on specific recommendations arc included In the
     Enclosure. I agree with your findings that DLA and the Department need 10 improve
     pricing t~hniquCII for determining fnlr mid cClIsonnble prices with distributors.
             (n addition to thc enclosed responses, I have taken two actions that will addrc.ss
     tbe pricing issue.:; raised In your drnft report:
            1. In June 2007, I established a working group to: assess the magnitude of the
     })cp~rll1lellt 's \1513
                         of cxclusiw disfributot'$, identify i~SUeil COlltracling offi~rs oro
     encollntering in I)ricing contracts with lhese distributors; identify best practices for
     successfu1llriclng ofcontracts with dlsllibutors; ant! 10 recommcnd to me nctions lhe
     Dcpartment nellds to take (0 improve pricing lcclutiquc.5 with these distributors.
            2. In May 2007, I clarified guidance for obtaining cost data in the ProcedufCS,
     Guldancc and Infonnation (POI) cl:vision (0 section 21S.4 when the Truth in Negotiation
     Act doe~ not apply and there is no olher way to determine price re.'\sonablcnes.~ except to
     require cost data and perform a cosll1nalygjs.
            lf~ns Tegardin, this l~em~yntact my point of
     contact, ~at?03.602.         ral~sd.l1li'.




     Altachmcnl$:
                                               4).y~
                                                   D eel r, Defense Procuremcnt
                                                         Acquisition Polley
     As stated




                                                  65
                               FOR OFFICIAL USE ONLY
                                                                                                       b(4)
                                                                                           Endolllfe

SUBJECT: Dl'aft RC)lOI't on Proelll'lng Noncoll1llctlllve SplII'C Pnrts Tl\I'ough nn
Exchuive DlslrlbntOl' (project No, D2006-DOOOCIJ·OOS6.000)

Recolllnlcndniions:

A, J. We recommend thaI the Under SccIclary ofDefense for i\c~lIisi!iOll, Technology,
and Logistics:

       Recolllmendation II. Develop and issue guidance into [he acquisition regulations
thut permits contracting ofticcfS 10 require consent to subconh'act for lixcd-pricc
contmcts from prime conlractors that exhibit significant ri:-.l.:; of c113T&ing cxccs,<,jve prices.

       Response. Concur with Intent. We tlo 110t believe that a significant change to Ihe
DclCnse Fcdcrel AcquisltiOl1 Regulation Supplement Is warranted for Individual
circumsltll1ces identified in the draft report; however, wc do believe that speeifio
guidance for pricing aclions with exclusive distributors is warranted to address the issues
raised in YOUl' report. See the DPAP response 10 your recommendalioro A.t,d. below for
aClions we plan to take to cnsure contracting ofliccrs obtain the dala Ihcy need to ensure
prices trom exclusive dlstl'lbutors 3re full' and reasonab e,

        Recommendation b. Issue guidanee that require~~ the Mililal'Y Dcpartmcnts and
Defense agencies 10 Hack and periodically report infonnaliol\ about problem c<Jntracl01'S
thatl'eftlse to provide requested infolllllliion necessary 10 determine pilce reasonableness
and take appropcJale oc!ion to address pliclng lssu<:s rellllw (0 specific contractor:;.

       Response. Concur. nPAP will issue a policy memorandum by December 14,
2007. requiring the Military Departments and Defense agenci~ (0 repolt to DPAP any
companies receiving 811 award or contract moditkation beginlling Jl1nunry 2, 2008, thaI
refuse to provide costdat4 when rcquc~tcd by the contracting officer bcc.l\lSe performing
cost analysis was rhe only means for a contracting officer to determine prices fair and
rensonable.

       Recommendation e, Review the Defense Logi~ties Agency's dealer competition
policies and determine whcthel' the policies meet the Federal AC<juisitioll Regulation
15.403·1 definition ofRdequRte colllpetilion.

        Response. Concuf. Wc ~scsscd the Defense Logistics Agency (DLA) policy
dnted June 28, 2007. and lhe policy does not conflict with the Federal Acqulsitioll
Regulation (PAR). Tho policy appropriately directs conlrtleting officers to " ... ensure
there is a reasonahle basis for finding that dealers or dislnlmlors I1re lrllly independent. .. n
and prOVides eKlImplei oftmdue influence whel"e competition would not exist and




                                              66
                  FOR OFFICIAL USE ONLY
examples ofpotenlial adequate competilion. The policy adds; ..... Additionally, the
exl~lence of compclillon Is not, alone, sufficient to validate the reasonableness of an
offeror's proposed price...." We bc.Jicvo tho findings in your rep()11 represent
implementnt!()!\ problclllS and \lse of poor judgment. I plan to issue a memorandum to
the Senior Procurement Executive at DLA by Dec.ember 14,2007, and rcqucstlln action
plan dctllillng how DLA will ellSure proper application ofrAR 15.403-I(e)(I) and that
conlracting offi(;<"f$ l\:quire submission of cost dalll, Nul perfonn ,ost analysis, whell
compar-ablc eommer¢ial sales, adequato competition, or II prior cost analysis is
unavailable and no other valid analysis leclmiquc can be used. Our memorandum will
point out the types ofrisl;s identified in your draft report whell individual dealers are not
stocking parts, rather are proposing prices based 011 quotes obtained JrOl'll a single source
distributor or monufl\eturcr.

       Recommendation d. Identify llnd address contractor:; lhat (C(luire DoD
contracting OfficelS tl) procure llOncompetitive item!: through an e>.:clusivc dislributor.

        ROS)lOIlSO. Concur. Tho findings in tho draft roport identify issues related to
determining prices to be fail' lind reaSOnAble in accordanoo with FAR 15.4 and
Procedures, Guidance lllld Illfomlation (POI) 215.4. Whether a company uses an
exclusive dealer or not is part orthe comp2ny'!: bUl:illess stratcgy and performing a data
call to identi\)' those companies would not resolve the pricing Issues Identified in thc
dratt report. Although contract Awards to cxehl~i\'e distributor:; is less than .5 percent of
the depllrtmenL~ annual buyl:, we l'e«lgni7.e fhe si&nilicance of imprn)lCrly pricing the
millions ordollars lhat are aWllrded 10 exclusive distributors. DI'AP will issue a policy
memorandum by December J4.2007 to the Mililary Departments and Defense agencies
(0 rultCf'clle the requirements at PAR [5.4 and POI 215.4, relating it to exclusive
distributors/dealers. l1ul memorondum will require all controcting officcrs 10 obtain
needed cost data and perform a eosl analysis for all costs, including all cosl<; and markup
comprL~ing the price charged by the ori~inal ~uiJlment manufaclurer (ORM)/ac(ua(
llI11nulaeturcr; IUld a revicw oftlle cost proposal analysis performed by the exclusivc
distdbutor/dc:<\kr of lis price from tile single SQurce OBMlactua)lllllnuC."turer. When
companics rcfuse to provide the required dahl :lnd/or analysis and award has to be made
without the required cosl analysis, it will be reported to DPAP.

       Recommendation B. 1. We recommend lhal lite Under Sccl'etf\l'Y of Defense for
Acquisition, Technology. und Logistics review lind tktcnnillc whether the Ddense
logistics Agency's polic)' for determining the cosl or prjcin~ dahl threshold is consistent
with the Federal Acqui!:ition RegUlation.

        Response. We do not believe that tlte policy for determining the cost or pricing
dllta threshold is consislent with the Fedcrnl Acquisition Regulation. We have
coordinated this isslle with nLA and they nre mvisillg their policy 10 confornl to FAR.




                                             67
                  FOR OFFICIAL USE ONLY
Defense Logistics Agency Comments


                                             DEFE:NSE LOGISTICS AGENCY
                                                      HEADQUARTERS
                                         072" JOHN J. KINGMAN ROAO, SUITE        lU~33
                                            FORT BELVOIR, VIRGINIA 22060·6221



 III !t1~LV
      REfER TO   1-73                                                                          JAN 7 2008

                 MEJtfORANDUM FOR ASSISTANT INSPECfOR GENERAL FOR AUDITINO
                                              DEPARTMENT OF DEFENSE

                 sunfficr: Procuring Noncompetitive Spale Parts Through an Exclusive Dislributor
                              (project No. D2006·DOOOCH·OOS6)


                        The Def(nse Logistics Agency's comments on the fUldings and recommendations oCtile
                 subjccl draft report arc attached.

                   _ We8~nilytocomm.t~intofcontactfor
                 thisreport is~-73. (703) 767-                        r~ DLA OffICe of
                 investigations aJld Internal Audits (OIIA), (103) 7 6 7 .



                                                             ~-~
                                                             ~I<N01T
                                                                Director, Acquisition Management


                 Allacbmcnt




                                                           68
                                                                                                             b(4)
                                    FOR OFFICIAL USE ONLY
 Finding A: DOD contracting officers were wlable 10 effectively negotiate prj(~s or
 obtain !:est value for noncomFCtitive spare puts procured tlvough Dulch Valley Supply,
 an exclusive dlSlrlbutor for lItunerous slngle-solllCC manufaGlurers. Negotiations were
 not effective for the following rea$ons:

       • DUlOh Valley Supply did wt effettively negotiate prices wilh single-solllc,:
      • .manufaclurers (subcontreclors) including obtaining cosc data when necessary.

      • DOD contracting ofliutS ~rirn8ril)l relied OJ'J ineftective tools such as price
        analysis, <:cst Malysis of dealer costs, and dealer competition to support price
        re-asonableness determinations. In several instances. price reasonable~s
        detemllnatlons wele not made.

      • rhe current exclusive distributor modelmed to procure items does not provide
        besl value and is less effective Ihan the lraditional DLA supply and strategic
        SlIpplier models.

-es a resull. DOD paid about $3.0 million (75.0 peocent) morc than the fair and reasonable
 priC<'ls for 33 parts that cost about S6.~&Vlllley Supply accepted prices
 from manufacturers that "ere abollt ~retn~e[ tban fair and
 reasonable and then applied ~ugh charges of_percent for negli&ible
Or no added value totaling Q ~ Ifpc<lbl~rns dre IlOt addra$$~d. DOD will
pay about $17.8 million more than fair and r~asonablcprices for the same hems over the
next 6 }~ars and this valuable pro<:umnent money ....ill not be available to support oUlcr
urgent warfighter needs. In addition, the eurr~el increased
lead time.s and associated inventory levels by _ _ Wc do not
beli~ve   Ihe cunenl exclusive distributor model is a viable procUrement allernative for
DOD.
DLA Comments: Olncur.

Most ofthe parts the IG review covered in the audit were for older weapon systems with
low demand for rcplacemwt parts; the Govcmment generally does not possess the
manufacturing drawings necessary to produce th~ parts on a competitive basis. Further,
thero tllC u,ually IOWC.-Vlllucd parts presenting lil1tcoc no incennve for other
manufaclurers to risk investing time and money in trying to reverse elllliocer them.

Dutch Valley Supply did not effeclively negotiate prices \l'ith single-source
manufaclurers because there Is no InD:ntlvc for ell her Dutch Valley or lhe Ol!l.llufaclUrers
that ha\'c chosen Dulch Valley as a sole distributor to p..... sent reasMable prices to the
Oovenunenl. The Government has no effeclive bargaining power in Ihese sitU!ltions.
whether dealing directly \\ith the manufacturers or through au exclusive distributor such
as Dutch Valley. Dutch Valley and the manufacturers know the Government C\lstomecs
hove no rem nllenl~tive source for th~ ~ingio source iNms. Tho lnanUfaCIUrttS know
that the;' can charge essentially m.atcver price they wish, and Dutch Valley IuIOW$ thallt




                                           69
                FOR OFPfCIAL USE ONLY                                                           b(4)
                                                                                                       I.
                                                                                                   [-




can pass through whllleverprice the manufacturers set, allowing Dutch Valley to s~1l10
the Go.. .erntltelll at lhal price plus its own markull on that prk:e,

DOD contractlng officers rely On ineffective pricing tools btcoUSe lhe~e Me the limited
lool~ available to lbe OovcnUltcnt when buying single sou~ items at tolal prices belol\'
lhe cosl or pricing data threshold (currently $650,000), or when buying comm~eial items
lhat ale exempt from the Trulh in Negotiations Act (reNA) rcqllirements regardless of
price. Although eonlrecting offieers can request dilta othor thM certified cost or prioir.g
dala, there is no effective mechanism in asole source situation 10 require vendor
compliance wilh Ihese requests. It might also be not~d that, even wilen the TINA
requirements for ccrtWed cost or p.ricing dala apply. in a sol~ source situation, the
Oovemnlellt has little or nO ability to re<julrecomplianec if tho yendor is nol willing to
oomply vCllunt2rily.

1t was only through the 10's use of its subpoena po\\er to access Dutch Valley's and its
"subcontractors'" COltlrilCICOSl dlU3 that anyone In the Government was able 10 review
 md evaJuat~ cost data from Dutch Valley and other sole parts distributors. Unlike tho
--DODIO, contraeti~g ofticers do not have the ability 10 compel disclosure of data, and the
 economics of sole source situlltions often give sole sowc~ supplier:s little or 110 il1etl1tive
 10 comply with reque~ls for \lolul\iIlry discloSllte. This report demonstrates (be excessive
 pricing thot oon be eK~led 10 occur in the absence of equal QCoess by the Oo\'emrnentlo
 cost data necessary for negotiating sole source "rices.

Finally, although the current exclusive distribUlor model for sole SOOfce procUretl1ults
~oes not provide best \'alll~ ilOO is less effective than olher methods of support, for Ihe
teasollS stated abol/e, buyiJlS directly from the manufacturers will not necessarily
01 iminalc the possibility of overpricing. DLA agrees, however, that it would l\l!east
eliminate lhe markup charged by !he exclusive distributor. If, however, the
manufacturers determine that it is in their best interest to use an eXclusive distnbu!OT,
DLt\ h(i$littlo or no leverage to   U$C   in eliminating this JXactieo.

As acknowledged ill lhis r~port, DLA has achieved some reverse engineering sucasses
by LmJl1ing with Military Service organic manufacturIng facilities. However, we have
aJso experie-nced instances ofpriC<'J hikes by original<:quipment manufactulers (OEMs)
on othe. sole SOUf<" parts when 001' oflheir products hilS bean reverse e.ngioeered and is
now being bought competilively.

DLA concurs in tlle report's conclusion that dlstlilm ors can occasionally be very useful
as suppliers when they stock item-s and can provide quicker avo.ilability And delivel)'.
When a dealer is able to fill a supply syslem niche by stocking and supplying ClIstomer
[teeds for expedited suppl)' and other improved services at reasonable increases In support
costs, paying a higher price and purchasing from a sole distributor may be acceptable.
Thi~ has not proven to be the case Wi~, Dutch Valle)'. as denl0lulr"ated by die report.




                                                  2




                                               70
               FOR OFFICIAL USE ONLY
Recommendation A.2. We recommend that the Commanders, Army Avialion and
Missile Life Cycle Management Command and Navy Inventory Control POilll,
Philadelphia; and Director, Defense Logistics Agency instruct contillcthlg officers to:

    a. Ensure prime contractors. like Dulch Valley Supply, conduct appropriate cost or
price ~8[Yses 10 e..<1ablish the reasonableness of proposed subcontract pri~ and include
the rcs\llts of UJese analyses in the price proposal as required by Federal Atquisilioo
Regulation 15.404-3, "Subcontract Pricing Considerations."

DLA Comments: Concur with Intent.

Our Component Acquisition Executhe will Issue a memorandlffil addressing the need for
all acquisition mtl/13gers to as...<urc cornpJi~eo wilh the policies for detemlioing
reasonableness whcn the oftcred price includcs apass-throu~h cost from a subcontractor
or other supplier (federal Acquisition Regulalion (FAR) Subpart 15.4, Defense FAR
 Supplement (DfARS) Subpart 215.4,and DOD fAR SUpplement l'ro~dures, Guidance,
 and Information (DFARS POT, $ubpllrt 215.4). The mCtl\or~ndwl\wm nlso nddrC3!
"Sybmlssion of contractor and Sllbcontractor t<)st or pricing data when the estinuted
 contract and subcontract amounts oxcecd the TINA thresholds (FAR t5.40~-3(e».

DIsposition:
(X) Action Is ongoing. Eel>: April 30, 200g
() Action is considered complctr.


   b. DClerminc the adcqua~y of the cost or price analyses pcrfom\ed by the prime
contractor.

DLA Comments: Concur.

We are taking steps to T'lIise contrllctillg offic<s' awareness a:ld 10 (annulate 9J\d
implement corrective actions as appropriate. This nutter was included in issues covered
in a November 7,7.007, memorandum from the Director, Defense Procurement and
Acquisition Policy (DPAP), subj«t: Ae<:esS to Records with Exclusive
DistributorY1>ealers. We discussed the rncmorandun\ nnd discussed corrective actions
during the mosl recent regularly scheduled teleconference \\;Ih the Chiefs of our
ContraCling Ofl1ces (CCOs) on December 13,2007. One such action \\ill be the formal
lI'ansmittlll of Ihe DPAP memo using a DLA·wi~ Procuren:ent LeUer (PROCLTR),
along wilh additional interim implementing guldancc, by March 31, 2008. Following
lhis, DLA will conduct R slmplillg review ofrecent buys to determine whelher the
interim efforts have corrected the problem.

l>lsposlllon:
(X) Action Is ongoing. EC:O: Dceembcr 31, 200g
() Acllon is consldertd com pIe/f.




                                               3




                                            71
                FOR OFFICIAL USE ONLY
                                                                                                ;

                                                                                                i·




   c. Review and detennine the reasonableness of subcontractor prices to illclude
obtalnlng COSI dela when necessary before ewalding fulure contracts, if the prime
contractor did not perfonn ndequate cost or poco tU18lysos.

DLA fomn,ebl,: Concur.

DLA contracting officers do request and, when it is provided, roview and determine the
reasonahleness of subconlraclorcosl. In mosl cases, howel'er. Ihe dala is oot provided or
the dale that is provided is inadequate. The inability to obtain cost data has b~n elevated
to higher-level management in the pasland the Supply chains will continue (0 seek a
resolution. Subslantiallmprovemel1l.S are needed however. After the DPAP l'I:ponlng
rtquiremenl. providing for nolification to DPAP when contrncIors refuse to provide coal
dala, has been in effect for a period, we will review the process results 10 detemline if the
changes have been effective or whether fur1her increase ill enlphasis is needed.
DisposUlon:
~1 Aclion Is ongoing. EeD: December 31. 2008
() Action Is considered complele,


    1,1. Perform cosl analysis in s noncompetitive envir.:>oment 10 dekrminc plico
reasonablene;s when price anal)'Sis does not provide sufficient information and a relishle
ba.seline price has not been cslahlished.

:DLA Commentsl Concur.

When unable to secure adequate cost data, contracting officers bave used price analysis in
sOllle cases 8S a last lesort to reach a conclusion regarding pri~ reasonableness. The
inability to obtain cosll1ala has been elevated to hig/ler-levcllllanagelllclIl and we
continue to suk access to such data. The DI'AP Memorandum, November 7, 2007,
subject: Access to Records with Exclusive DJstributors!DealeN, directs contracting
omcees 10 secure cost data where needed to reach a conclusion as to price
reasonableness, and lequiresa repon 10 DPAP when the Head of the ContI1Ic\ing Activity
srnn1s a waiver to allow award 10 a dealer or di$kibuIoI thtll rofuses to provide cost dala
when TINA does not apply. We will encourage CCOs to seek this data. while pursuing a
I'\:newed teaming effort with suppliers 10 help secure Ihe n=saryaccess.

Disposition:
(X) Aclion Is ongoing. RCn: Oe<'ember 31,2008
() Action is considered complete.


   e. Tilke action   10   discontinue using exclusi...e distn'butonl unlo!s !hoy CM dovelop Q
business model tbat provides sufficient added valuc to include increased C<lmpetitioll.
obtaining CQst datil 10 effectively negotiate prices, and ((duced le-ad times lind inventory.


                                                4




                                                72
                 FOR OFFICIAL USE ONLY
                                                                                               i-
                                                                                               I
                                                                                               i
                                                                                               I




DLA Conlnltnts: Concur with intent.

lhe exclu$ivc dlrlributol"1l addre$.ed in the audit, and oth~rs OLA is obliged 10 buy from,
represent suppliers of sole or single soun:e weapOns system parIs and components. As
noted in tilis report, OLA has been suc¢~~fulln tevet'Se engineering some of these items
and negotiating with one OEM to change its business practlc? ofnot dealing directly witll
tho government. DLA h43 11 long-tcrm business strategy of mnximiz.ing efforts to build
Strategic Supplier Alliances. Supply Chain Alliances. Prime Vendor. and other long tenn
contracts. We will we these approaches as well as vendor fails to emphasize the mutual
benefits of these cooperative IllTll1lgemenls, and to tlletfillly seek to discourage company
COIl')' into exclusive distributorships which increase our costs of ~Ic source items. As
noted previolldy, however, DLA ClInnot prevent an OEM's ll~e or an exdu.~ive
distributor if the OEM detemlines to do so.

 Disposition:
 () Action is onlloing. ECD:
-QC.) ActloD is considered complete for reporting purposes.

RccommcndationA.3. Wo I'CC()lt1nlc-nd thot the Director, Defense Logistics Agency:

   a. Request tbe Defense Contract Management Agency (DCMA) to inunediately
conuncncc a review of Dutch Valley Supply's purchasing system.

DLA Commmts: Concur.

DCMA indiC.1ted it "ill contact Dutch Vallo)' in Ianuazy 2008 for ac~ss 10 commence
IlIoIcviclV.

nlsposltion:
(X) Action Is ongoing. ECD: June 30, 2008
o  Attion is considered complele.


    b. lmtf\lc.t the Commanders ofthe Defensc Supply Cenlers 10 discontinoo granting
inappropriate waivers from cost or pricing data based primaIily 01\ price analysis.

OLA Comments: Concur.

Ule DPAP IIlcmorandwn, March 23, 2007, subject Waivers Under Ihe Truth in
Negotiations Act ([INA), provided additional guidance to re'terate the c:<ceptional case
",siver requiremcnts estl1blished by Se1:tion 817 of Public Law (PL) 107·314 (Netional
Defense Authorization Act of 2003). Thereupon. DlA commenced a 1ll,ll\lber of
initiatives, including issuance of PROCLTRs 07-10 and 07-28 on July 19,2007, and
NovCln~r 7,2007. respectively. Agency-wide and individual supply chain training




                                            73
                FOR OFFICIAL USE ONLY
sessions ",~re also conducted to assure the changes in policy are fully understood and
followed. DLA continues to auempt to secure cost or pricing data when required to avoid
usc oian clIccptionnt c~c waivcr. butlhclc will be situations in "hieh the cost data
cannol be obtained in accordance with the revised DFARS policy. In such cases, DLA is
elevating to higher-fe\'Cl management its efforts to secure cost data or fully CQrnply willi
the three findings ofPublic Law 107-314 and the additional guidance promulgated by
DPAP"and DU's PROCLTRs.

Disposition:
() Acrion is ongoing. ECD:
(X) Action is considered complete.


    c. Continue initiating reverse engineering efforts for ilems that have unreasonable
pricing from single-source offeror•.

DLA COlllnlenl$: Concur.

otA has been successful in some reverse engineeting efforls as noted in lhe report.
However, given the protracted lime-irameand limited funding we and the MIlitary
SctVic.:s h;IVO available for this offort, 8S well as tho Jack of economio incentivo for
alternate manufa('.(urers ill some cases. we will also employ continuing correspondence
through command lIl1d functional channels, training, and lttognition of individual and
group aceomplishmcn s and olher outrc.ach initiatives (0 increase 8WllIeness of the
llllpol18nCC ofreducing or eliminating lustanCtS of egleglous overprIcing by nOll-value
added $ole distributors.

Disposition:
()Aclion is ongoing. ECD:
(X) Adlon i$ con~ldered complete for reporting purpo~C8,


   d, Discontinue coding an analysis of dealer costs as cost linalysis unless II cost
analysis of manufactuling coslS hilS also been performed.

DLA Comments: Concur.

Research to dclemllnc the clrcwnstance leadIng to the write-up was incomplCle at the
limo of this responso. Wo arc researching why this happened IlJJd what corrective nctions
are needed. Following completion, we will provide the DODIO with infomuuion
gathered and the basis ofour cOI\cluslon.

Disposilion:
(j() Adion Is  ongoing. P.CD: April 30,200&
( ) Aclion Is considered oomplett,



                                             6




                                             74
                 FOR OFFICIAL HSE ONLY
   e. Discontinue using dealer competition to determine price reasonableness in a
noncompetitive envIronment.

DLA Conlments: Partially concur.

 111e federaJ Acquisition Regulation and the DLA Acquisition Directive (DLAD) allow
 dealer competilion 10 be used liS the bllsis for II price reasonllbleness determinalion if
 "independence" can he established bet\',een tlte dealers and the manufacturer. Our
 update ofthe DLAD in PROCLTR. 01-08, dated June 28,2007, subject: Price
 Competition for Single Manufacturing Source Items Offered by 2.11 Oris-inal Equipment
 Manufacturer (OEM) and its Distributors, Dealers and/or Ollier Non·Manufaclwing
 Suppliers, underscored that the ex.istence of competilion is not, alone, sufficienl to
 validate the reasonableness of an ofl"eror's price proposal. It pointed out two specific
 DLAD proVisions thaI require conlraetirlg oflicer.l to verify the ohj~tive price
 reasonabtenC5S of all offers, fIld provided guldancc In delennlnlng when compelitors can
 be considered independent. Even under simplified plo~dllros, it specifies tlul price
-r~asonablenelS d~termin2tion shall address (I) the adequacy of any price competition
 received, and (2) the comparability to prior prices paid for the sarne or similar item, if
 ony.

Di~poslllon:
() Action Is ongoinJ:. ECO:
(X) Action is cOllsldered complde.


     f. Emphasize to contracting oflic.:l"1llhe impOJ1ance of making Pi ice reasonableness
determinal!ollS, properly documenting the contract file, and ensuring cost or pricing data
is requested as required by Federal AcqUisition Regulations 15.403-4, "Requiring Cost or
I'ricing Dala. n

DLA Comments: Concur with intent.

These Iss es arc alrC2dy adequately covered In various Federal, DepafUnent of Defense,
Agency, :lnd local training mld are addressed during pl3Jllled Procurement Seminars.

Disposililm:
o Action is ongoing.     ECD:
(X) Action Is consldm:d complde.




                                           75
                FOR OFFICIAL USE ONLY
                                                                                                   ;
                                                                                                   i
                                                                                                   i-
                                                                                                   i




Finding B: DLA c{)ntracting officers failed to corre.:t1y calculate the threshold fur
requiringcosl or pricing data as required by fAR 15.403-4. TIle threshold was nOI
corrcctly calculated because DLA guidaMe pemlilted conlr.l¢ling o/li.celS to con,idet only
the value of the basic contract and options exereised at the time ofaward \'erms the fffinal
lmticipated dollar value oflhe action, ineludi.llg the de>lIat value of all opTIons" as the FAR
requires. As a result, DI...A faile~ to require cost or pricing data for eight items procured on
t.hrec COnlrllcls vatued at about S3.5 million.

DLA Comments: Concur.

The DLAD guidallcccited aoovc WlIS issued 18 years agi), but has now b«u up<late<110
reflect the FAR "dollar threshold" convention developed ~ubslanlial\y laler lIl1d inclooed
al FAR 1.108(c). The DLAD coverage has now been updated tocorrectlhis oversight.


 Recommondation B.2.l We r<X:<lmmcnd that the Director, Defense Logistics Agency,
4lI0dify the Defense Logistics Acquisition Directive to ensure that the threshold fOI
 obtaining cost or pricing dalll is C'Il1cu181~ based on the filial anticipated dol1aJ' value of
 the action, inclusive of the dollar value of all options.



Updated guidance on how the DLA calculates the dollar value of a eontract actiou Cor
application of the TINA threshold was is;ued in PROCLTR 07-28, November 7, 2007,
and now includes !lIe dollar valuc of all priced options. Our calculations cannot, and thus
do not, attempt to quantify and consider a value for eny unpriced options, consistent with
DFA,RS PGl215.403-I(c)(4XA)(4), which explains there is no price for unpriced
supplies or sc-rvices. For the same reason, our calculations exclude the value for
undcfinitizcd option$, if any.

 Disposition:
o Actiem is ongoing.      BCD:
(X) Action Is considered complete.




                                              76
                 FOR OFFICIAL USE ONLY
Department of the Navy Comments
                                                                                                                                Final Report
                                                                                                                                 Reference




  •
                                         DEPARTMENTOFTHENAVY                                               (GUI7S
                                              KWAL INVfNTORY CONTROL POINT                                 0$'00'' ' En
                             J'Ot.)"OMt.'l~ A\lt.,....   \e        ~»CAIIIUSu:,.11<.£·   roOOx :I)}O       t1.."'.
                                                                                                           IN WI. ~ u.n.t 10.
                             '10lAD£lflOA PA 19L1I·lI>il           MECll'-"ICSBURO 'A     mll~-Sl




                                                                                                       O£c 172001
     Joseph Bua;ko
     Departmen of Defense
     Office oflnspector General
     400 Anny Navy Drive, Room 80I
     Arlington. VA 22202-47().4

     Dear Mr. Bucsko,

     This leltl!1' is being sent in response 10 your draft proposed ~port on Procuring Noncompetitive
     Spare rarts Through an Bxcluslve Distributor (Proje.;t No. D2006-DOOOCH-0056.000) dated
     September 6.2007. TlIe NAVICP·P Management comments arc submitted below in response to
     DoD 10 rcwmmendalions A.2, page) J, of lile dran propO.leO report.                                                         Page 35

     NAVICP-P concurs witJllhe recommendation A2.a.ln accordance with FAR 15.404-3.
     SUbcontract Pricing Considerations. NAVICP-P will ensure prime contraclors conduct
     appropriate cosl or price BJlnl)'Soolo ~IQbllsh tho tC8S()nablcoCffi ofpfOpOscd OObCOlltmct pn<>l-s
     and include the results of these analyses in the price 10 the Government. NAVICP, in cooperation
     with DCAA, has and conlinues to provide extended cosl and pricing training 10 its workforce.

     Examples of lrilining ere as follows:
     I. Intrinsic Value 12/13/06
     2. Rates in GovetM1ent Contracting 02127/07
     3. DCAA in the Acqulsltion Process 06127/07
     4. Pri~ Rt3Sooableness 10/23/07
     5. CAS Procedures 12104/07

     NAVlcr·p COjjcurs with the r~CO<lullClidation AZ.b, Dttmnimtion of price n:asonablencss Is a
     Federal Acqulsilion Regulation r~uirement. NAVICp·P contracting officers will conlinue 10
     review and detmlline the adequacy oft1le cost or price analyses performed by Ihe prime
     contractor.

     NAVICP·P concurs wit1l the reconmlendation A.Z.c. NAVICP·}> will. where appropriate, review
     and detennine lhe reasonableness of ~ubrontIactor prices to include obtaining cost dala whcn
     ncc~sary before awllIl1ing future COIlU1lcts, If lhe prime colllnletor did not perfonn adequale cost
     or price analyses,

     NAVICp·P conculS wit1l the re~ommendalion A2.d. NAVICp·? will, where appropriate,
     perform cost anal}'3is in II noncompetitive environment 10 dClennine price reasonableness when
     price analysis does not provide sufficient inronna.ion and a reliable baseline price has not been




                                                              77
                         FOR OFPICIAL USE ONLY
                                                                                                  j
                                                                                                  1-




established.

NAVICP-P concurs witll the recommendation A.2.e. NAVICp·P will rtview the e~c1usive
distributor on an order-by·order basis (ns thll order comes lIpJ to detcnninc ifthe distributor
provides value to NAVIep.p.

If you have any question, please feel frccto contact me at 215·697-2868.


                                              Sinurely


                                               ~ 7YJ. ~A1JljD7
                                              BARBARA M. JO~SON-""
                                              Deputy Director OfConlrllcts




                                                                                                  1-.




                                                78
                    FOR OFFICIAL USE ONLY
Department of the Army Comments
                                                                                                           i
                                                                                                           j.

                                                                                                           !

                                    DEPARTMENT OF THE ARMY
                               HEADQVARTERS. U.S.ARI,:\' MATl!laEl COM llANO
                                            93~1   CIlAPeK ROAO
                                       FORT BELVOIR, VA 210E(l.5S27
              '.UI,.YTO
              41JE"TIOUo;;


     AMCIR                                                                       10 December 2007


     MEMORANDUM FOR Mr. David Lawson, alief, TIle Army Audil Linison Office. U.S. Army
     Audil AgMCy. 3101 Park Cenler Drive, Alexandria, VA 22302-1596

     SUBJECT: DODfG Dr.f! Rcpo.1, Procuring NoncompclitiveSp1l'l:: Parts Throug,h.1l Exclusive
     Dislributor (D2006-DOOOCH·0056.000) (AMC No. f)0602)


     I. Headquarters, U.S. Army Maleriel Command (HQ AMC) has reviewed the subjc<:1 dran
                       AmI)' Aviation 3J1d MissileComm.nd's (AMCOM) command reply (encl).
     rcporl And the U.S.
     HQ AMC endorses with AMCOM's nonconcurrence 10 lhe recommendations made in the report.

                                                   • • • • • cOrllmerckll (703)         8<Xi.
     FOR THE COMMANDER:



                                                        ~_ (1. /1..            tl'1'
     Enel                                               SUSAN C.   MCC~~
                                                        Director. Inlernal Review and Audit
                                                          Compliance Oflice




                                                   79
                        FOR OFFICIAL USE ONLY                                                       b(4)
                                DEPARTMENT OF tHE ARMY
                        UMTED STArES AJI1Jt AWol1 OIl AND MlSSI u: Ca.lMAllO
                                         n)(J I.UATl~ I\~O
                                 RHlSYONEARseNAlAl ~$8",..sOIO
                                                                                b{4)
AMSAM·IR


ME.\tORANDUM POR Department of Defcmc. Office o£lnspeetor Genua!, 400 Army Nnvy
Drivo, Arlington, VA 22202-4704

SUBJECT: Report on Proc:uring Noncompetitive Sp!Yo P6t1~ Through lin nxdusive Distdbulor
(Project No. D2006·DOOOCH·COS6.000) (AMe D0602) (AMCOM Project 200610320)


I, Referenoo c.nlai!, 6 Sop 07, subje<:t, Draft Report, D2006-DOOOCH·OOS6.000, Pro-.'Urins
Noncompetitive SP:lfC parts Though an Exclusive Dlstribatol",

2. The US Ann)' Aviation and Missile Life C)de Management Conunand (AMCOM)
comments to the Sllbjecl report are ~nclose<l.


Coiiii
3, 'The poinlS of contaet forM''on     arc.                    Internal Review and Audit
 '
or
       llenocof&e, DSN 788
                DSN 746
                                  COllllllCl"ial2.56.S76• • cmaJ_Us.army,mll,
                                 commerciaI2S6.g76-. emall            U9.llnlly.rnil.




Ene)




                                             80                                              b{4)
                FOR OFFICIAL USE ONLY
                                                                                                      ;

                                                                                                      i-
                                                                                                      I
                                                                                                      I




          US Army A\~3.tioD and MIssile Life Cycle MlllIBgement Commal1d
                        COin 1'll.&.1l ts' W })ol)lO Dl'afl RfPOrf:
                 Audit of Procuring NonCOlllpetitl",c Spllre Paris
                          Through an Exclusive fiiit.-ibutor
                      (l'roject No. D2006=DOOOCB·005"6.000)
                            (AMCOM ProjW 2006to3lD)

FlNDING: Procuring Noncompetitive Sp,are Parts through an Exclusive Distributor

"DoD COnlnlcling offic<!r~ were un~bJe to effectively negotiate prices or obtain best value
for nonco~etitive spare p3rls procured through Dutch V211ey Supply, an exclusive
distributor for numerous singl~sourcc manufSGturcrs. Negotillions were not effective
tor Ihe following rasoM.

           • DUlch Valley supply did not effectively negotiate prices wilh
             single-source nunufact1lreu (subconlraelolS) including
             oblaWng cost dala. WhM necessary.

           •   DoD conlracling officers primarily relied on ineffcolive tools
               such 8S price amlysis. (Ost analysis of dealer costs, and d~ler
               compdilivJllv .UPI"'II vli<:¢ reasouablclIc,sS delcmlinaliom. In
               ,ewi1l1 illdan~ plice reasonablenecs detemliMliolls W~C no!
               made.

           •   The Cllnent exelllsive lIIstn'buto~ model used to proture 11Cl\1S
               Does not provide bed value 31ld j~ ICl:i: effectiv¢ lb:>n lhe
               traditional DLA supply and slIatcgic supplier models.

As a TCSult, 000 paid tbout $3.0 million (7S.0 l)tlrcellt) more than lhe talr and reasonable
pric« for n put~ iliat COGI about $6.9 million, J)ulch V.lleySupply accepted. prices
front nunufacturen that were about _"ercet~lX than fair and
reasonwle and thea applied _                .       chll'ges o~rcenl for negligible
or no added value totaling abOlll               Itprobleul.S lire IIQlllddrcssed. O<>D wlll
p3yabout $17.8 million more Ihan fair and reasonable prices for the same items over the
next 6 years and tlJis v4luable proClUemenl money will not beavailal>lo to support other
urgent warlighler needs. In addilioll, the current cxclusi 0 distr'b r mOOel increased
lead tlmcs and assocIated inventory lovellO                                   We do lIot
believe the current exclusive distributor                                    tentative for
DoD."

I\DDITIo..'lAL COMMENTS:

        arc
ThMe_onunentsvided in reference 10 rhe Solenoid Valve,
NSN                      which is discussed on pages 18, 19, & 20 oflhe subject draft
rcpol .                 0, (he DODIO SUles that "11us exaruple cleuly 1110\'0'$ lhe
impoffutC6 of cOlluacting officGrS obtainiog Dlanu(aclurer COlt Of pricing data to




                                         81
            FOR OFFICIAL USE ONLY
                                                                                               b(4)
                                                                                                         ;-
                                                                                                         i-
                                                                                                         i




negotiale prices and we comml'lld the Army for takillgappropl1ale steps to significantly
redllC<l the priee negotiated." This statement follows the DODrO diswssion on page 19
whcce the conlnlcliJ\B officer requited cost or plicillg data ITom Ihe contractor and then
requested and relied upon the nCAA audilro position of the contractor's proposal in
negotlating a. 38.6% price mluction to the proposed pric¢.

Based 01\ these slatements, one would asSumll thatlhe Army (AMCOM ConlIacting
Offieer) did everything in accordance wilh FAR Puts 15.403 and 15.404. Til fact, theoo
slalemenls are appreciated, hoYtevtr; the DODIO then al.otC$ that "perfonl\ing coGt
analysis of morc recent cos! data lhat was Dot available to the AmlY at Ihe time of award,
\V~the curtont fair and ~onable lIW\ufacturer Wllt price oCthe solenoid valve
is _            We wero unable 10 reconcile thespeclfie dilfcrcm:es thai. existed in the two
seta of eost infonnaliol\ because Ihe data reviewed by DeM did nol I>rovido lho lama
                                                oro."
delail as the cost ill(OTlllatlOn obtained by tho     Further disc~iOllS by AMCOM
with the DODIG verified that tlIe data the DODIO utilized were atlUally recorded aCtcr
contract award. The AMCOM ta.'<tS exuptlon to \he PODIO lItill2.lng Information thaI
could not havo bC<l1l known at tho timo ofnegoti~t~ns rmd thM laboling it"exu.s~ive
profit" at Appendix D.
                                                                                                         I
As it relates to lho Dutch Valley pass tluu cost mentloned by tilO auditors, a minImum of
50mb pert of lhie effort ia nc<:ClUJ"y in that padtaging rod m~tlcin8: is fe<juirt.d M Wp.1I A~          r
frei~ht and shiPlling. In addition, .j; a minimum, some palt oftllQ OM for oversight and
logistics cost \wuld be Oee.JSSaty, &S wol1.

It is requested that either tho tOlals bo reviewed for wl\3t 1110 contneting of)tcer would
havo known at Ihe time of negotiations or that this item be taken cut oilhe DOOlO
sample since the cost/pricing analysis conducted by tre cOfl\r.lcting officer \VIS in
accordance willi regulations and sound buslnlm princlpals w~e mllllCd. As II rclal~ 10
Perkin Elmar MnnufacNror utilizing Dutch Valley Supply 3$ a di£lributor, P~kin Elmer
Manufecturer has ilie right to do buSitltSS with the GovelltlllCnt or not do business with
the GOI·emment. In this ellse, lha Government made Ihe deeision that by utiLizing DUlch
Valley Supply. under the circumstances tbat aisle<! at \he lim~ the price, at 010 Ilut\<llll-
lino, W88 considered reasonable.

Utilizing information that ocemed after the fect and could not have been knewn at the
time ofnegoUations Is not an 2ppropl1ltC lJIeU:.oo lO detennlne wt,other the approprilllo
alops ill coEt o.na1y$lg we~perfonncd. If fixed price c:.'ODbaets arc review&!, 'excessive
profit" may be foulld in one Mea and a significant loss found in another tbat oflScls the
profit. That is the natural give and t:al<e of the mB/ket in fixed price B1Tangements.

II i5 requ~led lhat eilh!r lhe lotals be reviewed for what the COnhllCling Officer would
bave known at tile linle oCriegotiations ortbat Ihis item be taken out of the DODiG
samplo rel2tive to the cosVpricing analysis conducted by the Contracling Officer. The
actions by the COntr.lcling Omcerwere in acoomm<:e wltb regulations and sound
business prinoipals were utiliz«l.
RECOMMENllATlON AND COl\1MAl'ID COMM8Nl'S:

                                                2




                                           82
             FOR OFFICIAL USE ONLY                                                                b(4)
                                                                                                                  ,-i
                                                                                                                  i
                                                                                                                  j




 RecommllPdpl!o!! A-2;

uWerecoll\Jnend th2t lhe <Almmanders, Anny Aviatiolllll1d Missile Lifo Cycle
Management Ccmrr:3.OlI and Navy Invenlory Ccntroll'olul, Philadelphia; and Ihe
Director. Defen!e Logistics Agtncy Instruct contracting officers to:

         a. BlISllte prin1e conlrnetors, like Dutch VaUcy Supply, conduclllppropriale COlt
or price a.naly~es to ~tabliM lhe rcasonabkoess ofproposoo subccntrt<:t prieC<lll.t\d
incluo:le tbe results of these analyses in the price propt>sal as required by F~derd
Acquisirit>n Regulation 15.404-3, "Subeontl'act Pri~il\& Considerations.

        b. DclclUlinC the adequacy offoo coat or pric-o Ulll1ysCS perfonnod by tho primo
contractor."

       C. ReView and ctetemlim Ihe reasonilblenoss ofsubcontractor pekes 10lnclmJc.
 obtwning oost data when ncc~ry before awan:lin8 futuloconuocl$, iftho prime
 contractor did not perform adequate cost Or price anal}ses.                                                  I
                                                                                                              ,i_
         d. rcrfornl c.ost anal}'sls in Ii nonCllll1petitive cny!ronmenllO delelnllne price
 reMonabl"""". WhCll prie~ 2n:lI)ll>;s doeG nol pn)~ide tllffidenl information and a relizbl(l
 baseline price has not been established.

     • G. nke acHon to di9;;ontinu~ using exclusi,·c distributors unless they can oovelop
 a bwincn rtIodeithst provides Juffioient added value to include increased cornpc.;uon,
 obtaining C<lSI data 10 effectiYely negotiate prices, and reduced lead times and inventory."

          CommaDlI CommeolS; Nonconcur. Tile Anny (AMCOM) Conuacling Officer
 utilized 01_ guidance in the Pederdl AC<juisition Regulations on conduc(ina: cost and
 pric.; analysis to determine fair and 1'Ca$0nabie prices. The draft report specifically
 direusses excessiveprices paid by the Command, but it is based on aetual manufactliling
 cost of the items procured. ThIs 1s COSl informatfon th.lls bas&! on "a;lUal" wd would
 not h~v. been avallablc 10 tho Contnclins ome~ prior to the award oCiiPiinii3iic.ti0inj. •r.n.faet.
 in the detailed review of AMCOM's buy for lhc SolCl1oid Valve, NSN.
_        primarilydiscuss~d (\n pages 18. 19 & 21) ofthosl!bjcct tcport, it stales "This
 example clearly shows the importanco of con!l1lctfng tlffi= oblainIng nlallUfaclurercosl
 or pricing d3ta 10 negotiate prices and we COlUllltncllhe Anny for lllking ~propriate stef's
 to significantly reduco the price negotiated" This stalemellt follows th~ DODIO
 discussion on page 19 where the Conlritcting Officcr required COSl or IIricing data from
 the contrnctor and then requested and relieJ upon dIe DCAA audited posilionoflhc
 conlr.lctor's p(Opas>t! ill negotiating II 38.6% price =:l~tion to the proposed price. Based
 cn these statements one would assume Ibat tho Army (AMCOM Contracting Officer) did
 eVelything in accordance wilh FAR Parts 15.403 and 15.404. 111crefore, the Army
 ContractIng Offleers took the approprial6 sleps and no (luther lnstructioll [s required.




                                              83
              FOR OFFICIAL USE ONLY                                                                    b{4)
                                                                                                          1-




 the steps ta.'tcn by tllc AMCOM COlltt4cling om.:........ in rcyiowing nnd analyzing ¢ost l\lld
 price inrannation were lhoi"Ouah in all sspccts. The fact that addillonal infonilation is
 now avallable since the items have beert m1l\ufactwed is not 8h appropriate comparison
 ofv.hat price should be negotiated based on anilysls or a proposal
 'I110rO»OI1 clearly sholVS the AMCOM Contracting Officer took appropriate steps during
 the Joview to determine a fair and reasonable price. tIloy coordlnlted with DCAA,
 reviewed subcontractor dab, and negotialed a roouetioo in price based on the
 rcCOlnmcndalions. The DODIG aclcnowledges thal the price they rocoour.end as fal rand
 reasonable is based on performing cost analysis ofmaro rc.:enl CO$t data that was not
 available to the Army at the lime of award. This Command attempted 10 ~ncile the
 spcciJio dllTeretlccs Ulat oxisted in the IWO scts ofcost loroonatlon because the <lata
 lC.wiowed by DCAA did not provide the samc detail as the cost infomution obtained by
 the DODIo. Further diS(lusslons between AMCo.\1 and the DOmO verified that the
 data the DODlG utilized \VAS actu~l recorded after corbael award.


 The appropriate rules, as stated in FAR Part IS \Vue followed by AMCOM and Beost
 analysis was pecfonned on 26 April 2005, as required by the regulations.

    The Anny cannot dictate to businesses that they cannOI utilize dirtributolS iflhey
   delennine this is a buslj),css model required to support their plodmts. In fact, some
-. companies do oot have a c2pabllity to meet the Army's packaging and marking
   ~,*<:'D1cn13 or have determined tbat "di!tribbtor allows ,he", 10 affQClivety meet
   multiple cilliomcrs' requirements. TIle AMCOM Commanding General did challenge
   the priole for utiliution of Dutch Valley for items where thoywere not reflecting timely
   pec(onnancc and support to our requiremCllts within a rea!onable price. [t is our Intenlto
   continuo to ehoJlcngo the U50 ofdistributors on an individual bnsiG when the situation
   warrants. Tho AMCOM Commanding General was proactive in challenging the prime
   conlraelor 10 provido direct support on those items.




                                                 4




                                            84
                                                                                                   b(4)
              FOR OFFICIAL USE ONLY
Team Members
The Depaltment of Defense Office oCIIle Deputy Inspector General for Auditing,
Acquisition aud Contract Management prepared this repOit. PcrsOImelofllle
Depal1mcllt of Defense Office of Inspcctor General who contributed to the report
are listed below.

lticb'l'd B. Jolliffe
Henry F. Kleinknecht
Joseph P. Buesko
Bradford C. Green
Marc D. Santana
Steven L. Kohne
Jason R. Parks
Mayra G. Velazquez-Perez
Meredith H. Johnson
